<html>
<title> - DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2006</title>
<body><pre>[Senate Hearing 109-]
[From the U.S. Government Printing Office]



 
       DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2006

                              ----------                              


                        WEDNESDAY, MAY 11, 2005

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Ted Stevens (chairman) presiding.
    Present: Senators Stevens, Cochran, and Inouye.

                         DEPARTMENT OF DEFENSE

                        Missile Defense Program

STATEMENTS OF:
        GENERAL JAMES E. CARTWRIGHT, UNITED STATES MARINE CORPS, 
            COMMANDER, UNITED STATES STRATEGIC COMMAND
        LIEUTENANT GENERAL HENRY A. OBERING, III, UNITED STATES AIR 
            FORCE, DIRECTOR, MISSILE DEFENSE AGENCY

                OPENING STATEMENT OF SENATOR TED STEVENS

    Senator Stevens. The subcommittee is pleased to welcome 
General James Cartwright, Commander of the United States (U.S.) 
Strategic Command (STRATCOM), and Lieutenant General Henry 
Obering, Director of the Missile Defense Agency (MDA). General 
Obering, this is your first opportunity I believe to testify 
before us as Director of the Missile Defense Agency. We welcome 
you. Given your service at MDA and in other roles, your having 
been a Director for almost 1 year now, we are happy to see you 
on board and to welcome you to our subcommittee. We thank you 
both for coming today.
    Ballistic missile defense (BMD) is one of the most 
challenging missions in the Department of Defense. This 
subcommittee has consistently provided support for missile 
defense programs. It is fair to say that this administration 
has been more active in fielding missile defense to meet the 
current and growing threat than any previous administration. 
Even as its support for missile defense remains strong, the 
administration is also contending with the global war on 
terror. With all the competing priorities, resources are 
extremely limited and funding for missile defense may have 
reached its high water mark in fiscal year 2005. However, we 
must move to ensure that our diminishing missile defense 
resources are well focused on the right priorities.
    General Cartwright, General Obering, we look forward to 
hearing about the missile defense capabilities and receiving an 
update on how the overall program is proceeding. We are going 
to make each of your statements a part of the record.
    I am delighted to turn it over now to our vice chairman for 
his remarks.

                 STATEMENT OF SENATOR DANIEL K. INOUYE

    Senator Inouye. Mr. Chairman, I am also pleased to join you 
in welcoming General Obering and General Cartwright.
    These are challenging times and very interesting times for 
missile defense. The program has seen both setbacks and 
achievements this past year. For example, last September the 
President was all set to announce the deployment of a missile 
defense system, but problems persisted in testing the system, 
and that announcement had to be delayed. More recently, we have 
seen two tests where the target was launched, but the 
interceptor never left the silo.
    I understand you are currently considering whether to 
withdraw from the high altitude airship program due to cost and 
schedule overruns. Nevertheless, we recognize that missile 
defense is technologically challenging. Despite these setbacks, 
it is important to note the many successes that have occurred 
over the past year.
    The Aegis ballistic missile defense program had another 
successful intercept last February. This brings you to five out 
of six successes for its testing. In addition, one of the Aegis 
destroyers, equipped with the capability to search and track 
missiles, is now positioned in the Sea of Japan.
    Mr. Chairman, I would like to have the remainder of my 
statement made part of the record, if I may.
    Senator Stevens. Yes, Senator, it will be.
    [The statement follows:]

             Prepared Statement of Senator Daniel K. Inouye

    Today I am pleased to join our chairman in welcoming to the 
committee Lieutenant General Obering, Director of the Missile 
Defense Agency, and General Cartwright, Commander of U.S. 
Strategic Command.
    Gentlemen, you have stepped into your respective positions 
at a very interesting and challenging time for missile defense. 
The missile defense program has seen both set backs and 
achievements this past year.
    Last September, the President was set to announce the 
deployment of a limited national missile defense system. 
However, problems persist with testing the system, and the 
announcement has been delayed.
    More recently, we have seen two tests where the target was 
launched successfully, but the interceptor never left the silo 
because of problems with ground equipment.
    I understand you are currently considering whether to 
withdraw from the high altitude airship program due to cost and 
schedule overruns.
    Finally, the missile defense program was cut back by $1 
billion in the fiscal year 2006 budget request as part of the 
overall pressure to reduce the Defense Department budget.
    Nevertheless, we recognize that missile defense is 
technologically challenging, and despite these setbacks, it is 
important to note the many successes that also occurred over 
the past year.
    The aegis ballistic missile defense program had another 
successful intercept test last February, bringing it to five 
out of six successes in its testing. In addition, one of the 
aegis destroyer equipped with the capability to search and 
track missiles is now positioned in the sea of Japan.
    The airborne laser program met two successful milestones--
the first light of the laser beam and flight of the aircraft. 
This happened after many skeptics believed the program was 
headed toward failure.
    Finally, eight long-range interceptors are in the ground 
and checked-out in Fort Greely, Alaska and Vandenberg Air Force 
Base in California.
    The fact of the matter is that ballistic missiles are 
proliferating. They are a threat to our homeland and to those 
of our allies and friends around the world. Building an 
affordable and workable missile defense system is important for 
our national security for now and for the foreseeable future.
    Gentlemen, this committee understands the importance of a 
strong missile defense. We will continue to support your 
programs, but we will keep an ever watchful eye on the risks 
and costs of your missile defense programs.
    I look forward to hearing from you both on the fiscal year 
2006 budget request and the priorities and challenges of the 
missile defense program.

    Senator Stevens. I call on the chairman of the full 
committee, Senator Cochran.

                   STATEMENT OF SENATOR THAD COCHRAN

    Senator Cochran. Mr. Chairman, thank you very much. I join 
you in welcoming our witnesses today at this important hearing. 
I think it is important for us to remain engaged with those who 
are involved in developing and deploying comprehensive 
capability of defending against missile attacks.
    We have legislated the authority to deploy a national 
missile defense system, and Senator Inouye and Senator Stevens 
and I cosponsored legislation several years ago that was 
adopted by the Congress and signed by the President calling for 
the deployment of that capability. I think you have 
demonstrated that it is feasible, that we do have the 
capabilities of making this goal come true and become a 
reality. For all of that, we congratulate you and look forward 
to your testimony about this and other capabilities you are 
working on to protect troops in the field and other assets and 
resources that we have that are a matter of supreme national 
interest. Thank you for your service.
    Senator Stevens. Thank you very much.
    General Cartwright, we would be happy to have your 
statement.

                SUMMARY STATEMENT OF GENERAL CARTWRIGHT

    General Cartwright. Thank you, Mr. Chairman and Senator 
Inouye. I would like to take just a few minutes and make a few 
remarks. My presence here is to bring you up to date on some of 
the operational issues as the system starts to transition to 
the operational side.
    I just want to walk back. In 2004, our goal was to provide 
a rudimentary system against a limited threat. That threat was 
defined as two to five missiles coming from North Korea. What 
we were able to put together at the early part of the year and 
at the end of 2004 was what I would describe as a thin line 
system. In other words, we had a command and control system 
that reached to the critical points. We had sensors that were 
on a single thread but were end to end, and we had a weapons 
system that was at that time at one base.
    We put that system together. It was available. If there 
were an emergency, we could use it, but being a thin line 
system, it really was a system that was not set up to do both 
operations and research and development (R&D) simultaneously. 
So we have been moving back and forth on a scheduled basis 
between operations and R&D with a focus mainly on R&D in 2005.
    Our focus in 2005 was to build the system and start to put 
some depth and redundancy into the system to bring the 
assurance levels up and to bring the operational realism and 
start to train our soldiers to operate the system. Behind me is 
Lieutenant General Larry Dodgen who is my commander for missile 
defense. He has the responsibility of training the individuals 
to operate the system on a day-to-day basis.
    In the early part of the year, we asked and worked with 
Secretary Rumsfeld to set up what we called a shakedown period, 
which in Navy terms was to take the system and put operators on 
the system and start to understand the strengths and 
weaknesses, start to understand the concept of operation that 
you would employ on a day-to-day basis, things as simple as 
four people sitting at consoles working the system, what if the 
display shuts off, what if the coms do not work, starting the 
build the procedures which also builds in the confidence for 
the soldier to be able to operate the system. These were 
critical things to start to understand, get the operators 
involved.
    It also helped us shape and define what operationally 
realistic meant, what we needed to work with General Obering 
on, to make sure that the system matched up with the 
expectations of the soldiers, as we learned to operate the 
system. That has gone on since the beginning of the year. We 
have moved back and forth and scheduled activities. I think we 
are on our ninth iteration where we turn the system over to the 
operators, let them work on it for an extended period of time. 
That has given us a lot of insights and a lot of help in 
defining how we are going to use this system.
    Another question that I routinely get is why do we need a 
defensive system. We are putting this investment in. I go back 
really to my marine routes on this. If you talk to Captain 
Cartwright or Private First Class (PFC) Cartwright about having 
a balanced offensive capability with a balanced defensive 
capability, I would not send a marine into the streets of 
Fallujah without armor. It makes a difference in how the enemy 
treats you and it makes a difference in how you behave in a 
threat environment. Having a balanced offense and defense in 
the sophisticated threats that we deal in today, we can have 
snipers and terrorists on the street who hide among civilians, 
take their first shot, thinking they are going to get the 
advantage by getting that first shot off with no regret factor 
because nobody will shoot back at them and you are worried 
about ducking. Having a defense makes all the difference in the 
world in the calculus of the mind of the adversary and the mind 
of our soldiers, sailors, airmen, and marines.
    When we look at the threat that we are facing today, having 
only a strategy of mutual assured destruction, or offense only, 
is just not going to be robust enough for the diverse threat 
that we face today. We have to change the calculus in the mind 
of the enemy so that that first shot, they do not believe that 
they are going to escape with that with no regret. Number two, 
they have got to question whether they are going to be 
successful or not, and number three, they have got to believe 
that we will get them if they take that first shot. It is just 
absolutely essential. So having a balanced offense and defense 
in the world we deal in today is absolutely essential.
    The shakedown for us has provided our soldiers with the 
mind set and the confidence to operate the system. 2005, 
hopefully for us, brings additional weapons, additional sensors 
so that we have the backups and the redundancies and we are not 
relying on a single string. It brings a more robust command and 
control system, and we will start to get to the point where we 
also bring into the equation, as the administration has laid 
out, our first priority of defending the Nation, our second 
priority of defending our forward deployed forces. And with the 
Aegis systems that Senator Inouye alluded to, we start to get 
the capability to bring systems to bear that can defend our 
deployed forces wherever they are in the world. And to me that 
is essential. We have got to extend that umbrella out and have 
it available for our deployed forces and then our allies and 
friends in addition.

                           PREPARED STATEMENT

    So I stand ready for your questions. I hope that gives you 
a context in which STRATCOM has come into this equation.
    [The statement follows:]
           Prepared Statement of General James E. Cartwright
    Mr. Chairman and Members of the Subcommittee: This is my first 
opportunity to appear before you as Commander of the United States 
Strategic Command. Thank you for the time you've given me to discuss 
the missions assigned to us as we continue to prosecute the Global War 
on Terror and take on the challenge of combating weapons of mass 
destruction.
    My prepared remarks cover USSTRATCOM's role in the challenging 21st 
Century environment and plans for addressing those challenges with 
capabilities to serve our nation's needs in war and in peace.
                  the 21st century global environment
    Global interdependence--economic, political, and social--combined 
with near instantaneous global connectivity, is a trademark of the new 
century. It also heightens the importance of strong links between U.S. 
strategic objectives and regional operations. U.S. strategic objectives 
have profound influence on individuals, regions, nations, and non-state 
actors and networks. The tight linkage between U.S. strategic 
objectives and the conduct of regional operations is evident in our 
operations in Afghanistan and Iraq, and more recently in Asia in the 
aftermath of the tsunami. In Afghanistan, the strategic objective to 
combat global terrorism guided, as well as constrained, our regional 
decisions. The regional operations in Iraq are clearly influencing 
cultural, economic, and security considerations around the globe.
    Our adversaries are using asymmetric approaches; exploiting social, 
political, and economic vulnerabilities to avoid confronting superior 
U.S. forces head on. We continue to see increases in the speed and 
deceptive scale of proliferation of potential weapons of mass 
destruction, including delivery and concealment capabilities. We see 
adversaries who would use improvised explosive devices (IEDs) and 
suicide bombs against their own people and infrastructure, as well as 
against deployed multinational forces. These adversaries have easy 
access to the same global technology base we do, and can exploit the 
same communication and information resources as the American public. 
They have proven they are an intelligent and adaptable enemy.
    All operations, while regional in execution, have global 
consequence and therefore require a global perspective. Regional 
combatant commanders, who are responsible and accountable for 
conducting combat and peacekeeping operations in their areas of 
responsibility (AORs), have long depended upon support provided from 
outside their AORs. Much of that support, which in the past was 
provided on an ad hoc basis, has now been codified in the Unified 
Command Plan as a USSTRATCOM global responsibility. We are positioning 
USSTRATCOM to advance a distinctly global and strategic perspective on 
current and emerging capabilities necessary to deter threats to our way 
of life, particularly those threats involving weapons of mass 
destruction. USSTRATCOM will enable combatant commander's regional 
operations through realization of a comprehensive set of global mission 
capabilities, soundly integrated to achieve more effective and 
efficient execution.
    We look upon this responsibility as both an exciting challenge and 
a solemn obligation to the regional combatant commanders, the American 
men and women who serve in their AORs and to the American people.
                            global enablers
    21st Century operations are fundamentally different from those of 
the last century. Combat operations are being conducted in rapidly 
changing circumstances, shifting from humanitarian operations to 
intense firefights within a few hundred yards of each other with little 
or no warning. This dynamic nature is matched by a varying composition 
of assisting partners. We must be ready to conduct integrated, 
distributed operations using global and regional military forces. In 
many situations, these forces will be augmented by other U.S. 
Government personnel, coalition and commercial partners, and possibly, 
non-governmental organizations. To plan and effectively execute these 
types of distributed, agile and integrated operations, the regional 
combatant commands increasingly rely on multiple capabilities the 
global commands must support or provide.
    The Unified Command Plan expands USSTRATCOM responsibilities 
through the assignment of global mission areas that span levels of 
authority, cross regional boundaries and intersect with various 
national and international agencies. USSTRATCOM's missions are:
  --Global deterrence;
  --Global support from space-based operations;
  --Global intelligence, surveillance, and reconnaissance;
  --Global strike;
  --Global information and network operations;
  --Global command and control;
  --Global integrated missile defense coordination; and
  --Globally combating weapons of mass destruction.
    Achieving the full potential of these missions is contingent upon 
identifying the right capabilities mix and sustaining our global reach 
through space. However, without the context of advanced situational 
awareness, and the power of collaboration, even the best tools may be 
insufficient to deter and defeat a determined adversary. We are placing 
an emphasis on the following global enablers:
    The New Triad.--USSTRATCOM supports The New Triad concept; a 
strategic way ahead in pursuit of a more diverse set of offensive and 
defensive warfighting capabilities. We are active participants in all 
three legs of The New Triad: offensive nuclear and non-nuclear strike 
(including non-kinetic), passive and active defenses, and a defense 
infrastructure capable of building and sustaining all offensive and 
defensive elements, including the critical support areas of command and 
control and intelligence.
    Coupled with improved collaboration and shared global awareness, 
The New Triad concept will enable more precisely tailored global strike 
operations. With a full spectrum of nuclear, conventional and non-
kinetic options available, regional combatant commanders will be 
enabled to achieve specific local effects against high value targets in 
the context of the strategic objective.
    While we are confident in our ability to support effective global 
strike operations today, we must continue to evolve that capability to 
meet the demands of an uncertain tomorrow. For example, I intend to 
conduct experiments to better understand the value of weapon accuracy 
within a range of stressing environments. If modeling and testing 
confirm the value of such capability, this may lead to new thoughts on 
the balance between nuclear and conventional strike alternatives.
    The new responsibilities assigned to USSTRATCOM have required the 
command to broaden its Cold War focus from deterring nuclear or large-
scale conventional aggression to becoming a major contributor to the 
much broader defense strategy. Nuclear weapons; however, continue to be 
important, particularly for assuring allies and friends of U.S. 
security commitments, dissuading arms competition, deterring hostile 
leaders who are willing to accept great risk and cost, and for holding 
at risk those targets that cannot be addressed by other means. As 
steward of the nation's strategic nuclear deterrent, we have two 
specific areas of focus--rationalizing our nuclear forces, and 
providing for a relevant nuclear stockpile in the context of The New 
Triad. At the same time we will continue to evaluate and provide a 
range of options, both nuclear and non-nuclear, relevant to the threat 
and military operations.
    The New Triad concept presents an opportunity to reduce our 
reliance on nuclear weapons through the evaluation of alternative 
weapons, defensive capabilities and associated risk. It is our intent 
to have the upcoming Quadrennial Defense Review address nuclear issues, 
and the associated infrastructure, to determine transformation 
requirements for our nuclear capabilities in the 21st Century. We will 
look at rationalizing our nuclear forces as an element of the overall 
force structure and the proper tailoring of nuclear effects as part of 
the broad spectrum of national power. These assessments will be 
important to future operational planning as well as future budget 
plans.
    Space.--The importance of the space mission to our national 
security cannot be overstated. The U.S. economy, our quality of life, 
and our nation's defense are all linked to our freedom of action in 
space. For example, satellites are at the heart of routine financial 
activities such as simple automatic teller machine operations or 
complicated international currency and stock market transactions. The 
telecommunication industry is heavily vested in space. Commercial 
airliners, container ships, trains, trucks, police, fire departments 
and ambulances have also become highly dependent upon space-based 
global positioning systems to enhance their ability to safely deliver 
people, goods and services. The fact is, our dependency on space 
increases every day--a fact not lost on our adversaries. This growing 
national dependence on space-based and space-enabled capabilities 
establishes a true imperative to protect our space assets and our 
ability to operate freely in, and from, space.
    We currently enjoy an asymmetric advantage in space, but our 
adversaries are gaining on us. Our space support infrastructure is 
aging and, in some instances, on the verge of becoming obsolete. We 
will continue to face additional challenges as other nations exploit 
new technologies and capabilities in attempts to bridge the gap between 
them and us.
    The space environment itself is also rapidly changing. For example, 
the number of objects in-orbit increases every month, while the size of 
those objects decreases. This is challenging our space surveillance 
technology, developed in the latter half of the 20th Century, because 
it was not designed to detect or track the current magnitude of new, 
smaller objects, including micro-satellites. This increases the chances 
of collisions, which threatens our manned spaceflight program; opens 
the door for unwarned action against U.S. satellites by adversaries; 
and limits our ability to protect our space assets.
    We must do a better job of leveraging the capabilities of our space 
assets--in DOD, national and commercial systems. We must also maintain 
the ability to protect our own space assets and capabilities, both 
actively and passively, while denying our adversaries the military use 
of space--at the time and place of our choosing.
    In order to bring these elements of space control together, our 
near-term plan is to work with the various space programs to identify 
potential gaps and make sure existing information and applications are 
available and provided to authorized users on a global network. This 
plan will serve as the basis for a concept of operations to exploit 
information from our space assets, providing space situational 
awareness to the regional combatant commands.
    Distributed Operations.--For distributed, integrated operations, 
dominant situational awareness is an imperative--globally, regionally, 
and locally. It must exist across the full breadth and depth of 
operations, from planning and combat through post-conflict 
reconstruction, and ultimately, peacetime.
    For our forces to effectively employ collaborative capabilities and 
capitalize upon situational awareness, we must enable them to create 
pictures of the battlespace tailored to their specific needs--what we 
refer to as User Defined Operating Pictures. It is USSTRATCOM's job to 
provide the global capabilities to enhance situational awareness, 
facilitate collaborative planning, and provide a basic User Defined 
Operating Picture capability for all of the combatant commands.
    Many of the capabilities required for agile, distributed operations 
will be facilitated by space and enabled by a global information 
environment with ubiquitous, assured access to information, when and 
where any combatant commander needs it. To achieve this vision, the old 
mantra to provide information on a ``need to know'' basis, must be 
replaced by a ``need to share.'' Critical information that the 
warfighter didn't know existed, and the owner of the information didn't 
know was important, must be made available within a global information 
environment easily accessible to commanders at all levels.
    Interdependent Capabilities.--Our action plan for global command 
and control focuses on ensuring the all-source information needed for 
effective operations is available to all theaters. For the global 
Intelligence, Surveillance, Reconnaissance (ISR) mission, that also 
means developing integrated and persistent systems capable of 
supporting precision targeting. USSTRATCOM has the lead for 
coordinating global ISR capabilities and will be working closely with 
the regional combatant commanders, Joint Forces Command and the 
services to develop the associated strategy.
    The Department's net-centric global information services, currently 
in development, are essential to our global missions. These services 
will connect global and regional applications and improve both 
horizontal and vertical information integration.
    We are developing a prioritized plan for transitioning away from 
stove-piped legacy systems to capabilities that support broader 
information and applications access. Included in this plan are actions 
focused on leveraging existing legacy applications and data by making 
them more broadly accessible. Each user will be allowed the flexibility 
to select from any available data source, anywhere on the network, 
those objects most useful to them at any particular time. Additionally, 
any new data source will be available the moment it comes onto the 
network, rather than requiring a modification to existing systems, as 
is the case today. USSTRATCOM is an advocate for net-centricity. Our 
focus is on:
  --Capability to enable our ``internet-like'' environment and access 
        to information;
  --Realization of a high-bandwidth, ubiquitous communications backbone 
        to deliver information with high assurance and low latency; and
  --Robust information assurance required to defend our networks and 
        our information.
    Creating a collaborative structure is more than just designing and 
disseminating tools--it is also about changing human behavior. Our 
objective is a global, persistent, 24/7 collaborative environment--
comprising people, systems, and tools. Our future structure must 
support real time command and control at both the global and local 
levels as well as enable dynamic, adaptive planning and execution in 
which USSTRATCOM, the regional combatant commanders, and other 
geographically dispersed commanders can plan and execute operations 
together. Our collaborative environment must also provide the 
capability to ``connect all the dots''--enemy dots, friendly dots, 
neutral dots, contextual dots--all the dots that matter--as they 
appear, rather than wait for a post-event analysis when all of the 
different data stores can be opened. With improved collaboration and 
shared awareness, we can more effectively conduct operations using the 
full spectrum of capabilities to achieve desired, focused effects 
against high value targets.
    In that regard, we are actively assessing the currently available 
collaborative environment and processes and investigating potential 
pilot programs to encourage organizational information sharing to build 
trust in shared information. Fundamental to this issue is the 
establishment of data tagging standards and associated information 
assurance policies.
    With regard to sharing information, we are in some respects 
navigating uncharted waters. While the value of sharing information 
with allies, coalition partners and other Federal departments and 
agencies is well understood, sharing information with industry or other 
private sources presents proprietary, intellectual property and privacy 
concerns which are not well understood. Such information has the 
potential to be of great value to USSTRATCOM and the regional combatant 
commanders in accomplishing our missions. We will be attentive to the 
actions currently being taken throughout the Federal government in 
response to Executive Order 13356, ``Strengthening the Sharing of 
Terrorism Information To Protect Americans,'' which may provide us 
valuable insight and guidance in this sensitive area.
                    building an asymmetric advantage
    In addition to our role as steward of the nation's nuclear forces 
and guardian of global deterrence, USSTRATCOM now has the 
responsibility for working across regional boundaries to address 
threats in a global perspective. To achieve the asymmetric advantage we 
desire requires us to build the interdependent, collaborative, 
operational environment we've envisioned. It is our responsibility to 
provide global services and global context to the regional combatant 
commands and their deployed forces so we are collectively a more 
effective force--for warfighting, peace and all possible combinations 
of both.
    New Command Structure.--As the latest step in maturing our approach 
to fulfilling USSTRATCOM's global mission responsibilities we are 
implementing a new command structure. This structure is critical to the 
asymmetric advantage we seek, leveraging essential competencies of 
associated components and key supporting agencies through an 
distributed, collaborative environment.
    Rather than creating additional organizational layers, we are 
bringing existing commands and agencies under our global mission 
umbrella through the establishment of Joint Functional Component 
Commands. These interdependent Joint Functional Component Commands will 
have responsibility for the day to day planning and execution of our 
primary mission areas: space and global strike, intelligence 
surveillance and reconnaissance, network warfare, integrated missile 
defense and combating weapons of mass destruction.
    USSTRATCOM headquarters retains responsibility for nuclear command 
and control. Additionally, headquarters will provide strategic level 
integrated and synchronized planning to ensure full-spectrum mission 
accomplishment. USSTRATCOM will also advocate for the capabilities 
necessary to accomplish these missions.
    This construct will allow us to leverage key, in-place expertise 
from across the Department of Defense and make it readily available to 
all regional combatant commanders. Our vision is for the combatant 
commanders to view any Joint Functional Component Command as a means by 
which to access all of the capabilities resident in the USSTRATCOM 
global mission set. Anytime a Combatant Commander queries one of our 
component commands, they will establish strategic visibility across our 
entire structure through our collaborative environment. The fully 
integrated response USSTRATCOM provides should offer the Combatant 
Commander greater situational awareness and more options than 
originally thought available. Specific Joint Functional Component 
Command responsibilities include:
  --Space and Global Strike.--The Commander STRATAF (8th Air Force) 
        will serve as the Joint Functional Component Commander for 
        Space and Global Strike. This component will integrate all 
        elements of military power to conduct, plan, and present global 
        strike effects and also direct the deliberate planning and 
        execution of assigned space operation missions. For plans not 
        aligned with a specific mission set, the Joint Functional 
        Component Command for Space and Global Strike is tasked to work 
        in close coordination with USSTRATCOM headquarters as the lead 
        component responsible for the integration and coordination of 
        capabilities provided by all other Joint Functional Component 
        Commands.
  --Intelligence Surveillance and Reconnaissance.--The Director, 
        Defense Intelligence Agency will be dual-hatted to lead the 
        Intelligence, Surveillance, and Reconnaissance Joint Functional 
        Component Command. This component is responsible for 
        coordinating global intelligence collection to address DOD 
        worldwide operations and national intelligence requirements. It 
        will serve as the epicenter for planning, execution and 
        assessment of the military's global Intelligence, Surveillance, 
        and Reconnaissance operations; a key enabler to achieving 
        global situational awareness.
  --Network Warfare.--The Director, National Security Agency will also 
        be dual-hatted to lead the Network Warfare Joint Functional 
        Component Command. This component will facilitate cooperative 
        engagement with other national entities in computer network 
        defense and offensive information warfare as part of our global 
        information operations.
      Our coordinated approach to information operations involves two 
        other important supporting commands. The Director, Defense 
        Information Systems Agency also heads the Joint Task Force for 
        Global Network Operations. This organization is responsible for 
        operating and defending our worldwide information networks, a 
        function closely aligned with the efforts of the Joint 
        Functional Component Command for Network Warfare. Additionally, 
        the Commander, Joint Information Operations Center coordinates 
        the non-network related pillars of information operations: 
        psychological operations, electronic warfare, operations 
        security and military deception. Both the Joint Task Force for 
        Global Network Operations and the Commander, Joint Information 
        Operations Center will be full members of the USSTRATCOM 
        distributed, collaborative environment.
  --Integrated Missile Defense.--The Commander, Army Space and Missile 
        Defense Command will head the Integrated Missile Defense Joint 
        Functional Component Command. This component will be 
        responsible for ensuring we meet USSTRATCOM's Unified Command 
        Plan responsibilities for planning, integrating, and 
        coordinating global missile defense operations and support. It 
        will conduct the day-to-day operations of assigned forces; 
        coordinating activities with associated combatant commands, 
        other STRATCOM Joint Functional Components and the efforts of 
        the Missile Defense Agency. The Joint Functional Component 
        Command for Integrated Missile Defense is a key element of the 
        ``defenses'' leg of The New Triad concept.
  --Combating Weapons of Mass Destruction.--The Secretary of Defense 
        recently assigned USSTRATCOM responsibility for integrating and 
        synchronizing DOD's efforts for combating weapons of mass 
        destruction. As this initiative is in its very formative 
        stages, we have yet to formalize any specific componency 
        structure. However, we anticipate establishing a formal 
        relationship with the Defense Threat Reduction Agency as an 
        initial starting point.
    This new componency structure is in its infancy and will take 
several months to fully realize. There are detailed issues to work 
through, including the proper distribution of subject matter expertise 
and an assessment of expanding relationships with other U.S. Government 
departments.
    A final element of our evolving organizational structure involves 
developing relationships with the private sector to build upon efforts 
under the Partnership to Defeat Terrorism. This important partnership 
with the private sector supports many of our national objectives and 
crosses into relatively uncharted territory.
  --Partnership to Defeat Terrorism.--The United States has achieved 
        success in the Global War on Terrorism by attacking terrorist 
        infrastructure, resources and sanctuaries. Nevertheless, our 
        adversaries continue to plan and conduct operations driven by 
        their assessment of our vulnerabilities. The main vulnerability 
        requiring our constant vigilance is the nation's economy, and 
        one need look no further than the economic aftershock 
        attributed to the 9/11 terrorist attacks to affirm this 
        assertion. The risk is accentuated given the global 
        underpinnings of our economic structure. Even a small-scale 
        terrorist attack against a lower tier provider in a distant 
        land can have wide-ranging and pervasive economic implications.
      Given the evolving understanding of terrorist's use of global 
        processes, the Partnership to Defeat Terrorism was created to 
        intercede on behalf of combatant commanders, among others, and 
        positively affect outcomes through connections with the private 
        sector. Since November 2001, the Partnership to Defeat 
        Terrorism has successfully combined private sector global 
        processes with other elements of national power to help fight 
        global terrorism as part of USSTRATCOM's global mission 
        responsibilities. This fruitful relationship with the private 
        sector has proven effective on a number of occasions and has 
        garnered the support of influential leaders both within and 
        outside government.
      Yet, the Partnership to Defeat Terrorism is somewhat of an ad hoc 
        process based on trusted relationships. As such, the value of 
        the program is directly related to the availability of the 
        participants. USSTRATCOM was recently contacted by a group of 
        people from various non-military sectors, advocating the 
        creation of a working group to formalize this ad hoc program to 
        begin planning a more permanent approach for the long-term.
      On a strategic level, the value of such an effort is the open 
        realization that all elements of national power, which have not 
        traditionally operated in a synchronized and coordinated role 
        in National Security, understand the urgent need for their 
        involvement.
    Full realization of the benefits inherent in the distributed, 
interdependent organizational structure described above requires an 
effective collaborative operation. A true collaborative environment 
provides us the asymmetric advantage necessary to deter and defeat the 
agile adversaries we face in the 21st Century environment. In the 
future, these skills will take on even greater importance as we broaden 
our partner base within the U.S. government, with coalition partners, 
commercial partners, academia and others, including non-government 
organizations.
                   achieving the strategic imperative
    Agile, responsive distributed operations, enabled by meaningful 
information exchange, shared objectives and shared situational 
awareness, are key to the successful performance of USSTRATCOM's global 
missions. We have assessed the capability gaps in our global mission 
areas and have developed action plans, working with our partner 
commands, to improve our collective ability to carry out operations at 
all levels.
    USSTRATCOM's strategy is focused on:
  --Stewardship of the strategic nuclear stockpile;
  --Defending against asymmetric approaches used by our adversaries, 
        including weapons of mass destruction;
  --Responding effectively in a rapidly changing combat operations 
        environment;
  --Achieving prompt, predictable precision operations;
  --Coordinating with U.S. and private sector partners in a 
        collaborative environment;
    Implementing this strategy relies on new and enhanced capabilities, 
including:
  --Dominant situational awareness,
  --A ubiquitous, assured, global information environment,
  --Dynamic, persistent, trustworthy collaborative planning,
  --User Defined Operating Pictures, using distributed, globally 
        available information, and
  --A culture that embraces ``need to share'' rather than ``need to 
        know.''
    We are not there yet. Working with our partner commands, we have 
developed plans to improve our global capabilities. We need your 
continued support to deliver the capabilities needed to combat the 
threats of the 21st Century. We need your support for:
  --Pursuit of high capacity, internet-like capability to extend the 
        Global Information Grid to deployed/mobile users worldwide;
  --Adoption of data tagging standards and information assurance 
        policies to increase government-wide trusted information 
        sharing;
  --Technology experiments to enhance our understanding of the value of 
        accuracy and stressing environments for current and future 
        weapons.
    USSTRATCOM recognizes what has to be done to be a global command in 
support of the warfighter. We are aggressively moving out on actions to 
ensure USSTRATCOM fulfills our full set of global responsibilities, 
supporting our national security needs in peace and in war.
    Thank you for your continued support.

    Senator Stevens. Thank you.
    General Obering, I was pleased to visit Fort Greely last 
month and delighted to have you here today.

         STATEMENT OF LIEUTENANT GENERAL HENRY A. OBERING, III

    General Obering. Thank you very much. Good morning, Mr. 
Chairman, Senator Inouye, Senator Cochran. It is a privilege to 
be here this morning. As you said, we have had many 
accomplishments and a few disappointments since my predecessor 
last addressed this subcommittee, but overall the missile 
defense program remains on track.
    Threats from weapons of mass destruction and ballistic 
missiles continue to present grave security concerns. Now, to 
deal with these, we are developing and incrementally fielding a 
joint, integrated, and layered ballistic missile defense system 
to defend the United States, our deployed forces, our allies, 
and our friends against all ranges of ballistic missiles. We 
have put the foundation of this system in place today.
    We are requesting $7.8 billion in fiscal year 2006, or 
roughly $1 billion less than our fiscal year 2005 request. This 
funding balances continued testing and system improvement with 
the fielding and sustainment of the long-range ground-based 
midcourse defense components, our short- to intermediate-range 
defense involving the Aegis ships with their interceptors, and 
the supporting radars, command, control, battle management, and 
communication capabilities.
    Now, the successful prototype interceptor test that we 
conducted in 2001 and 2002 gave us the confidence to proceed 
with the development and fielding of the system that relies 
primarily on the hit-to-kill technologies. While our testing 
has continued to build our confidence in the system, long-range 
interceptor aborts in our last recent test have been very 
disappointing. These aborts were due to a minor software 
problem in the first test and a ground support arm that failed 
to retract in the second. While these failures do not threaten 
the basic viability of the system, I have taken strong action 
to address them, which I have outlined in my written statement.
    We remain confident in the system's basic design, its hit-
to-kill effectiveness, and its inherent operational capability. 
Nevertheless, neither you, the American public, nor our enemies 
will believe in our ground-based Intercontinental Ballistic 
Missile (ICBM) defense until we demonstrate its effectiveness 
by successfully conducting additional operationally realistic 
flight tests.
    In planning our future test program, the Director of 
Operational Test and Evaluation and I have jointly approved an 
integrated master test plan effective through 2007. The plan 
includes combined developmental and operational testing with 
criteria for operational realism incorporated. Our pace in 
executing this flight test program for the long-range system 
will depend, however, on the recommendations of a mission 
readiness task force which I chartered and those 
recommendations are due in the coming weeks.
    We are on track with our initial fielding of the ground-
based and sea-based block 2004 interceptors, sensors, and the 
command, control, battle management, and communications 
components. Working closely with our warfighter partners, we 
have certified missile defense crews and put in place logistic 
support infrastructure and operational support centers. We have 
been in a shakedown period, as General Cartwright said, since 
last October to get us to the point where we could use this 
developmental system more routinely in an operational mode.
    Over the next decade, we will move toward greater sensor 
and interceptor robustness and mobility while adding a boost-
phase defense layer. We will continue development, testing, 
fielding, and support for the ground-based midcourse defense 
and the Aegis ballistic missile defense elements. We are also 
upgrading additional early warning radars and developing two 
new sensors, a very powerful sea-based X-band radar and a 
transportable X-band radar for forward basing. The terminal 
high altitude area defense program will resume flight testing 
this year and will continue into fiscal year 2006. In 2007, we 
plan to improve our sensor capabilities and coverage with the 
deployment of another forward-based X-band radar and the launch 
of two space tracking and surveillance system test bed 
satellites.
    At the moment, we are preserving decision flexibility with 
respect to our boost-phase defense programs. The airborne laser 
has recently enjoyed success, achieving first light and first 
flight milestones, but many challenges remain and we still need 
an alternative. The kinetic energy interceptor provides that 
alternative, and I have restructured that program to focus on 
the successful demonstration of a high acceleration booster 
flight in 2008. If successful, it could also provide us an 
alternative mobile approach for our next generation boosters.
    Finally, we have been working closely with a number of our 
allied and friendly governments to make missile defense a key 
element of our security relationships. We have signed framework 
agreements with Japan, the United Kingdom, and Australia, and 
are pursuing closer collaboration with Russia.

                           PREPARED STATEMENT

    In closing, Mr. Chairman, I want to thank this subcommittee 
for its continued tremendous support. I also want to thank the 
thousands of dedicated and talented Americans working on the 
missile defense program. I believe that we are on the right 
track to deliver the unprecedented capabilities that we will 
need to close off a major avenue of vulnerability for this 
Nation.
    Thank you, and I look forward to your questions.
    [The statement follows:]
     Prepared Statement of Lieutenant General Henry A. Obering, III
    Good morning, Mr. Chairman, Members of the Committee. It is an 
honor to be here today to present the Department of Defense's fiscal 
year 2006 Missile Defense Program and budget. The Missile Defense 
Agency mission remains one of developing and incrementally fielding a 
joint, integrated, and multilayered Ballistic Missile Defense system to 
defend the United States, our deployed forces, and our allies and 
friends against ballistic missiles of all ranges by engaging them in 
the boost, midcourse, and terminal phases of flight.
    Our program, reflected in the fiscal year 2006 budget submission, 
is structured to balance the early fielding elements of this system 
with its continued steady improvement through an evolutionary 
development and test approach. The budget also balances our 
capabilities across an evolving threat spectrum that includes rogue 
nations with increasing ballistic missile expertise.
    We are requesting $7.8 billion to support our program of work in 
fiscal year 2006, which is approximately $1 billion less than the 
fiscal year 2005 request. About $1.4 billion covers the continued 
fielding and sustainment of our block increments of long-range ground-
based midcourse defense components; our short- to intermediate-range 
defense involving Aegis ships with their interceptors; as well as all 
of the supporting radars, command, control, battle management and 
communication capabilities. About $6.4 billion will be invested in the 
development foundation for continued testing and evolution of the 
system.
    To provide the context for our budget submission, I would like to 
review what we have accomplished over the past year. And while I 
believe the Missile Defense Program is on the right track to deliver 
multilayered, integrated capabilities to counter current and emerging 
ballistic missile threats, I am planning to make some program 
adjustments in light of our two recent flight test failures.
    I also will explain the rationale behind our testing and fielding 
activities and address the next steps in our evolutionary ballistic 
missile defense program.
                   the evolving security environment
    The threat we face from proliferating and evolving ballistic 
missile systems and associated technologies and expertise continues 
unabated. There were nearly 100 foreign ballistic missile launches 
around the world in 2004. This is nearly double the number conducted in 
2003 and slightly greater than the number of launches in 2002. More 
than 60 launches last year involved short-range ballistic missiles, 
over ten involved medium-range missiles, and nearly twenty involved 
land- and sea-based long-range ballistic missiles.
    Operations Desert Storm (1991) and Iraqi Freedom (2003) 
demonstrated that missile defenses must be integrated into our regional 
military responses if we are to provide adequate protection of 
coalition forces, friendly population centers, and military assets. We 
must expect that troops deployed to regional hotspots will continue to 
encounter increasingly sophisticated ballistic missile threats.
    Nuclear-capable North Korea and nuclear-emergent Iran have shown 
serious interest in longer-range missiles. They underscore the severity 
of the proliferation problem. Our current and near-term missile defense 
fielding activities are a direct response to these dangers. There are 
also other ballistic missile threats to the homeland that we must 
address in the years ahead, including the possibility of an off-shore 
launch.
    We have had recent experience with tragic hostage situations 
involving individuals, and we have witnessed how the enemy has 
attempted to use hostages to coerce or blackmail us. Imagine now an 
entire city held hostage by a state or a terrorist organization. This 
is a grim prospect, and we must make every effort to prevent it from 
occurring. Any missile carrying a nuclear or biological payload could 
inflict catastrophic damage. I believe the ability to protect against 
threats of coercion and actively defend our forces, friends and allies, 
and homeland against ballistic missiles will play an increasingly 
critical role in our national security strategy.
Missile Defense Approach--Layered Defense
    We believe that highly integrated layered defenses will improve the 
chances of engaging and destroying a ballistic missile and its payload. 
This approach to missile defense also makes deployment of 
countermeasures much more difficult. If the adversary has a successful 
countermeasure deployment or tactic in the boost phase, for example, he 
may play right into the defense we have set up in midcourse. Layered 
defenses provide defense in depth and create an environment intended to 
frustrate an attacker. The elements of this system play to one 
another's strengths while covering one another's weaknesses.
    With the initial fielding last year of the Ground-based Midcourse 
Defense and Aegis surveillance and track capabilities of this 
integrated system, we are establishing a limited defensive capability 
for the United States against a long-range North Korean missile threat. 
At the same time, we are building up our inventory of mobile 
interceptors to protect coalition forces, allies and friends against 
shorter-range threats. With the cooperation of our allies and friends, 
we plan to evolve this defensive capability to improve defenses against 
all ranges of threats in all phases of flight and expand it over time 
with additional interceptors, sensors, and defensive layers.
    Since we cannot be certain which specific ballistic missile threats 
we will face in the future, or from where those threats will originate, 
our long-term strategy is to strengthen and maximize the flexibility of 
our missile defense capabilities. As we proceed with this program into 
the next decade, we will move towards a missile defense force structure 
that features greater sensor and interceptor mobility. In line with our 
multilayer approach, we will expand terminal defense protection and 
place increasing emphasis on boost phase defenses, which today are 
still early in development.
Initial Fielding of Block 2004
    Since my predecessor last appeared before this committee, we have 
made tremendous progress and have had a number of accomplishments. We 
also came up short of our expectations in a few areas.
    We stated last year that, by the end of 2004, we would begin 
fielding the initial elements of our integrated ballistic missile 
defense system. We have met nearly all of our objectives. We have 
installed six ground-based interceptors in silos at Fort Greely, Alaska 
and two at Vandenberg Air Force Base in California. We completed the 
upgrade of the Cobra Dane radar in Alaska and the modification of seven 
Aegis ships for long-range surveillance and tracking support. These 
elements have been fully connected to the fire control system and are 
supported by an extensive command, control, battle management and 
communications infrastructure. In addition, we have put in place the 
required logistics support infrastructure and support centers.
    Since October 2004, we have been in a ``shakedown'' or check-out 
period similar to that used as part of the commissioning of a U.S. Navy 
ship before it enters the operational fleet. We work closely with U.S. 
Strategic Command and the Combatant Commanders to certify missile 
defense crews at all echelons to ensure that they can operate the 
ballistic missile defense system if called upon to do so. We have 
exercised the command, fire control, battle management and 
communication capabilities critical to the operation of the system. The 
Aegis ships have been periodically put on station in the Sea of Japan 
to provide long-range surveillance and tracking data to our battle 
management system. We have fully integrated the Cobra Dane radar into 
the system, and it is ready for operational use even as it continues to 
play an active role in our test program by providing data on targets of 
opportunity. Finally, we have executed a series of exercises with the 
system that involves temporarily putting the system in a launch-ready 
state. This has enabled us to learn a great deal about the system's 
operability. It also allows us to demonstrate our ability to transition 
from development to operational support and back. This is very 
important since we will continue to improve the capabilities of the 
system over time, even as we remain ready to take advantage of its 
inherent defensive capability should the need arise.
Completing Block 2004
    Today we remain basically on track with interceptor fielding for 
the Test Bed. We have recovered from the 2003 propellant accident, 
which last year affected the long-range ground-based interceptors as 
well as the Aegis Standard Missile-3 (SM-3) and Terminal High Altitude 
Area Defense, or THAAD, booster production. We should have ten more 
interceptors emplaced in Alaska by December of this year. In October, 
we received the first Standard Missile-3 for deployment aboard an Aegis 
ship. To date, we have five of these interceptors with a total of eight 
scheduled to be delivered by the end of the year. By then, we will also 
have outfitted two Aegis cruisers with this engagement capability. So, 
in addition to providing surveillance and tracking support to the 
integrated ballistic missile defense system, Aegis will soon provide a 
flexible sea-mobile capability to defeat short- to medium-range 
ballistic missiles in their midcourse phase.
    Our sensor program is also on track. The Beale radar in California 
is receiving final software upgrades this spring and will be fully 
integrated into the system. We are now testing a transportable X-band 
radar, which can be forward-deployed this year to enhance our 
surveillance and tracking capabilities. Our most powerful sensor 
capability, the Sea-Based X-band Radar (SBX) will be traversing the 
Atlantic and Pacific Oceans this year, on its way to Adak, Alaska, 
where it will be ported. This radar is so capable that, if it were 
sitting in Chesapeake Bay, it could detect a baseball-sized object in 
space over San Francisco. This sea-mobile midcourse radar will allow us 
to increase the complexity of our tests by enabling different intercept 
geometries. And when we deploy it in the Pacific Ocean, it also will 
have an inherent operational capability against threats from Asia. 
Finally, the RAF Fylingdales early warning radar in the United Kingdom 
will be fully integrated for missile defense purposes by early 2006 and 
will provide the initial sensor coverage needed against Middle East 
threats.
    BMD elements will remain part of the system Test Bed even after we 
field them for initial capability. However, the Missile Defense Agency 
does not operate the BMD system. Our job is to provide a militarily 
useful capability to the warfighter. Because the BMD system is 
integrated and involves different Services, the MDA will continue to 
manage system configuration to ensure adequate integration of new 
components and elements and the continued smooth operation of the 
system.
    For these reasons, Congress mandated the Agency to maintain 
configuration control over PAC-3 and the Medium Extended Air Defense 
System (MEADS) following their transfer to the Army. Regarding the 
transition of the system elements, we use several models. Each 
transition, to include time and method of transfer, will be unique. In 
some cases, it may not be appropriate to transfer a BMD system element 
to a Service. The Sea-Based X-band Radar, for example, will likely 
remain a Missile Defense Agency Test Bed asset and be made available 
for operational use as appropriate. In other words, the Services and 
the Missile Defense Agency will have shared responsibilities and will 
continue to work with the Secretary of Defense, the Services, and the 
Component Commanders to arrange appropriate element transfer on a case 
by case basis.
Building Confidence through Spiral Testing
    The development and fielding of Block 2004 was initiated based on 
the confidence we built in our test program between 2000 and 2002. We 
successfully conducted four out of five intercept tests using 
prototypes of the ground-based interceptors we have in place today 
against long-range ballistic missile targets. In addition, in 2002 and 
2003, we successfully conducted three intercept tests against shorter-
range targets using an earlier version of the sea-based Aegis SM-3 
interceptors we are deploying today. These tests demonstrated the basic 
viability and effectiveness of a system that relies primarily on hit-
to-kill technologies to defeat in-flight missiles. In fact, we had 
learned as much as we could with the prototypes and decided it was time 
to restructure the program to accelerate the testing of the initial 
operational configurations of the system elements.
    In 2003 and 2004, we had three successful flight tests of the 
operational long-range booster now emplaced in the silos in Alaska and 
California. The booster performed exactly as predicted by our models 
and simulations. In addition, between 2002 and 2004, we successfully 
executed 58 flight tests, 67 ground tests, simulations, and exercises, 
all of which have continued to bolster our confidence in the basic 
ballistic missile defense capabilities. In the past year, however, we 
had several concerns with quality control and, as a result, executed 
only two long-range flight tests since last spring.
    The interceptor launch aborts in Integrated Flight Test (IFT)-13C 
last December and IFT-14 this past February were disappointments, but 
they were not, by any measure, serious setbacks. The anomaly that 
occurred in IFT-13C, in fact, is a very rare occurrence. As the 
interceptor prepares to launch, its on-board computer does a health and 
status check of various components. In that built-in test, interceptor 
operations were automatically terminated because an overly stringent 
parameter measuring the communications rate between the flight computer 
and its guidance components was not met. The launch control system 
actually worked as it was designed when it shut the interceptor down. A 
simple software update to relax that parameter corrected the problem. 
The fix was verified during subsequent ground tests and the next launch 
attempt. We did enjoy some success in the test. We successfully tracked 
the target and fed that information into the fire control system, a 
process that allowed us to successfully build a weapons task plan that 
we then loaded and, which was accepted, into the interceptor's 
computer.
    In February we used the same interceptor to attempt another flight 
test. Again, the target successfully launched. The interceptor 
successfully powered up and worked through built-in test procedures and 
was fully prepared to launch. Again, the system successfully tracked 
the target and fed the information to the fire control system, which 
generated a weapons task plan accepted by the interceptor's computer. 
This time, however, a piece of ground support equipment did not 
properly clear, and the launch control system did not issue a launch 
enable command.
    Mr. Chairman, I can assure you that while these test aborts were 
major disappointments, they were not major technical setbacks. We 
maintain our confidence in the system's basic design, its hit-to-kill 
effectiveness, and its inherent operational capability. Because of our 
recent test launch aborts, I chartered an independent team to review 
our test processes, procedures and management. They reported their 
findings to me last month. They indicated that we had successfully 
demonstrated the hit-to-kill technology and achieved a major national 
accomplishment in fielding initial defensive capabilities. The team 
described the rapid development and initial deployment of the system as 
comparable to other major military efforts, such as the initial 
deployment of the Minuteman and Polaris ballistic missiles.
    With the basic functionality demonstrated, the independent review 
team believed that we should now enter a ``Performance and Reliability 
Verification Phase,'' in which mission assurance becomes the number one 
objective. They noted that our system reliability is based on multiple 
intercept attempts per engagement, whereas our system testing focuses 
on the performance of a single interceptor. They also observed that our 
flight testing has a strategic significance well beyond that normally 
associated with military systems' development.
    The team recommended specific improvements in five areas. First, 
increase rigor in the flight test certification process, to include the 
addition of a concurrent and accountable independent assessment of test 
readiness. Second, strengthen system engineering by tightening 
contractor configuration management, enforcing process and workmanship 
standards, and ensuring proper specification flow down. Third, add 
ground test units and expand ground qualification testing. Fourth, hold 
prime contractor functional organizations (such as engineering, quality 
and mission assurance experts) accountable for supporting the program. 
And finally, ensure program executability by stabilizing baselines and 
establishing event-driven schedules.
    I also named the current Aegis BMD program director, Rear Admiral 
Kate Paige, as the Agency's Director of Mission Readiness with full 
authority to implement the corrections needed to ensure return to a 
successful flight test program. We have pursued a comprehensive and 
integrated approach to missile defense testing under the current 
program and are gradually making our tests more complex. Prior to the 
establishment of the Mission Readiness Task Force, we had planned a 
very aggressive test program for the next two years. That test plan 
involved flying the ground-based interceptor to gain confidence in our 
corrections and conducting two more long-range interceptor tests this 
calendar year. These flight tests included: an engagement sequence 
using an operationally configured Aegis ship to provide tracking 
information to a long-range interceptor and an engagement sequence 
using an interceptor launched from an operational site, Vandenberg; 
tracking information provided by an operational radar at Beale; and a 
target launched out of the Kodiak Launch Complex in Alaska. We also 
planned to fly targets across the face of the Cobra Dane radar in the 
Aleutians and Beale in California. However, all follow-on GMD flight 
tests are on hold pending the implementation of the Independent Review 
Team recommendations and a return to flight recommendation by the 
Mission Readiness Task Force.
    Missile defense testing has evolved, and will continue to evolve, 
based on results. We are not in a traditional development, test, and 
production mode where we test a system, then produce hundreds of units 
without further testing. We will always be testing and improving this 
system, using a spiral testing approach that cycles results into our 
spiral development activities. That is the very nature of spiral 
development. This approach also means fielding test assets in 
operational configurations. This dramatically reduces time from 
development to operations, which is critical in a mission area where 
this nation has been defenseless. Nevertheless, neither you, the 
American public nor our enemies will believe in our ground-based ICBM 
defense until we demonstrate its effectiveness by successfully 
conducting additional operationally realistic flight tests.
    In fiscal year 2006, we are adding new test objectives and using 
more complex scenarios. Also, war fighter participation will grow. We 
plan to execute four flight tests using the long-range interceptor 
under a variety of flight conditions and, for the first time, use 
tracking data from the sea-based X-band radar.
    In terms of our sea-based midcourse defense element, this past 
February, we successfully used a U.S. Navy Aegis cruiser to engage a 
short-range target ballistic missile. This test marked the first use of 
an operationally configured Aegis SM-3 interceptor. In the last three 
Aegis ballistic missile defense intercept flight tests, we 
incrementally ratcheted up the degree of realism and reduced testing 
limitations to the point where we did not notify the operational ship's 
crew of the target launch time and they were forced to react to a 
dynamic situation. This year, we will conduct two more tests using 
Aegis as the primary engagement platform. In fiscal year 2006, Aegis 
ballistic missile defense will use upgraded software and an advanced 
version of the SM-3 interceptor to engage a variety of short- and 
medium-range targets, including targets with separating warheads. We 
also plan to work with Japan to test the engagement performance of the 
SM-3 nosecone developed in the United States/Japan Cooperative Research 
project.
    Four Missile Defense Integration Exercises involving warfighter 
personnel will test hardware and software in the integrated system 
configuration to demonstrate system interoperability. War games also 
are an integral part of concept of operations development and 
validation. Four integrated missile defense wargames in fiscal year 
2006 will collect data to support characterization, verification, and 
assessment of the ballistic missile defense system with respect to 
operator-in-the-loop planning and the exchange of information in the 
system required for successful development and system operation.
    In addition to having laid out a very ambitious test plan, we are 
working hand-in-hand with the warfighter community and the independent 
testing community. We have more than one hundred people from the test 
community embedded in our program activities, and they are active in 
all phases of test planning, execution, and post-test analysis. We meet 
with them at the senior level on a weekly basis, and they help us 
develop and approve our test plans. All data from testing is available 
to all parties through a Joint Analysis Team and are used to conduct 
independent assessments of the system.
    The Missile Defense Agency and Director, Operational Test & 
Evaluation have completed and jointly approved an Integrated Master 
Test Plan, effective through 2007. The plan includes tests that combine 
developmental and operational testing to reduce costs and increase 
testing efficiency. Within our range safety constraints, we are 
committed to increasing the operational aspects as I stated earlier. 
This accumulated knowledge helps inform the assessment of operational 
readiness.
Building the Next Increment--Block 2006
    In building the Ballistic Missile Defense program of work within 
the top line budget reductions I mentioned earlier, we followed several 
guiding principles. To keep ahead of the rogue nation threats, we 
recognized the need to continue holding to our fielding commitments to 
the President for Blocks 2004 and 2006, including investment in the 
necessary logistics support. We also knew that we must prepare for 
asymmetric (e.g., the threat from off-shore launches) and emerging 
threat possibilities as well in our fielding and development plans.
    In executing our program we are following a strategy to retain 
alternative development paths until capability is proven--a knowledge-
based funding approach. This is a key concept in how we are executing 
our development program. We have structured the program to make 
decisions as to what we will and will not fund based upon the proven 
success of each program element. The approach involves tradeoffs to 
address sufficiency of defensive layers--boost, midcourse, terminal; 
diversity of basing modes--land, sea, air and space; and considerations 
of technical, schedule and cost performance.
    The funding request for fiscal year 2006 will develop and field the 
next increment of missile defense capability to improve protection of 
the United States from the Middle East, expand coverage to allies and 
friends, improve our capability against short-range threats, and 
increase the resistance of the integrated system to countermeasures. We 
are beginning to lay in more mobile, flexible interceptors and 
associated sensors to meet threats posed from unanticipated launch 
locations, including threats launched off our coasts.
    For midcourse capability against the long-range threat, the Ground-
based Midcourse Defense (GMD) element budget request is about $2.3 
billion for fiscal year 2006 to cover continued development, ground and 
flight testing, fielding and support. This request includes up to ten 
additional ground-based interceptors, their silos and associated 
support equipment and facilities as well as the long-lead items for the 
next increment. It also continues the upgrade of the Thule radar 
station in Greenland.
    To address the short- to intermediate-range threat, we are 
requesting approximately $1.9 billion to continue development and 
testing of our sea-based midcourse capability, or Aegis BMD, and our 
land-based THAAD element. We will continue purchases of the SM-3 
interceptor and the upgrading of Aegis ships to perform the BMD 
mission. By the end of 2007 we should have taken delivery of up to 28 
SM-3 interceptors for use on three Aegis cruisers and eight Aegis 
destroyers. This engagement capability will improve our ability to 
defend our deployed troops and our friends and allies. Six additional 
destroyers, for a total of 17 Aegis ships, will be capable of 
performing the surveillance and track mission.
    THAAD flight testing begins this year with controlled flight tests 
as well as radar and seeker characterization tests and will continue 
into fiscal year 2006, when we will conduct the first high endo-
atmospheric intercept test. We are working toward fielding the first 
THAAD unit in the 2008-2009 timeframe with a second unit available in 
2011.
    We will continue to roll out sensors that we will net together to 
detect and track threat targets and improve discrimination of the 
target suite in different phases of flight. In 2007, we will deploy a 
second forward-based X-band radar. We are working towards a 2007 launch 
of two Space Tracking and Surveillance System (STSS) test bed 
satellites. These test bed satellites will demonstrate closing the fire 
control loop and the value of STSS tracking data. We are requesting 
approximately $521 million in fiscal year 2006 to execute this STSS and 
BMDS Radar work.
    All of these system elements must be built on a solid command, 
control, battle management and communications foundation that spans 
thousands of miles, multiple time zones, hundreds of kilometers in 
space and several Combatant Commands. This foundation allows us to mix 
and match sensors, weapons and command centers to dramatically expand 
our detection and engagement capabilities over that achieved by the 
system's elements operating individually. In fact, without this 
foundation we cannot execute our basic mission. That is why the 
Command, Control, Battle Management and Communications program is so 
vital to the success of our integrated capability.
    Building a single integrated system of layered defenses has forced 
us to transition our thinking to become more system-centric. We 
established the Missile Defense National Team to solve the demanding 
technical problems involved in this unprecedented undertaking. No 
single contractor or government office has all the expertise needed to 
design and engineer an integrated and properly configured BMD system. 
The National Team brings together the best, most experienced people 
from the military and civilian government work forces, industry, and 
the federal laboratories to work aggressively and collaboratively on 
one of the nation's top priorities. However, integrating the existing 
elements of the Ballistic Missile Defense System proved to be very 
challenging. Today, we have streamlined the team's activities and 
realigned their priorities to focus on providing the detailed systems 
engineering needed for a truly integrated capability. The team has now 
gained traction and is leading the way to building the system this 
nation will need for the future.
Moving Toward the Future--Block 2008 and Beyond
    There is no silver bullet in missile defense, and strategic 
uncertainty could surprise us tomorrow with a more capable adversary. 
So it is important to continue our aggressive parallel paths approach 
as we build this integrated, multilayered defensive system. There are 
several important development efforts funded in this budget.
    We are preserving decision flexibility with respect to our boost 
phase programs until we understand what engagement capabilities they 
can offer. We have requested approximately $680 million for these 
activities in fiscal year 2006.
    In fiscal year 2006 we are beginning the integration of the high-
power laser component of the Airborne Laser (ABL) into the first ABL 
weapon system test bed and will initiate ground-testing. Following that 
we will integrate the high-power laser into the aircraft and conduct a 
campaign of flight tests, including lethal shoot-down of a series of 
targets. We still have many technical challenges with the Airborne 
Laser, but with the recent achievements of first light and first flight 
of the aircraft with its beam control/fire control system, I am pleased 
with where we are today. We have proven again that we can generate the 
power and photons necessary to have an effective directed energy 
capability. An operational Airborne Laser could provide a valuable 
boost phase defense capability against missiles of all ranges. The 
revolutionary potential of this technology is so significant, that it 
is worth both the investment and our patience.
    We undertook the Kinetic Energy Interceptor boost-phase effort in 
response to a 2002 Defense Science Board Summer Study recommendation to 
develop a terrestrial-based boost phase interceptor as an alternative 
to the high-risk Airborne Laser development effort. We will not know 
for two or three years, however, whether either of these programs will 
be technically viable. With the recent successes we have had with ABL, 
we are now able to fine-tune our boost-phase development work to better 
align it with our longer-term missile defense strategy of building a 
layered defense capability that has greater flexibility and mobility.
    We have established the Airborne Laser as the primary boost phase 
defense element. We are reducing our fiscal year 2006 funding request 
for the KEI effort and have restructured that activity, building in a 
one-year delay, in order to focus near-term efforts on demonstrating 
key capabilities and reduce development risks. We restructured the 
Kinetic Energy Interceptor activity as risk mitigation for the Airborne 
Laser and focused it on development of a land-based mobile, high-
acceleration booster. It has always been our view that the KEI booster, 
which is envisioned as a flexible and high-performance booster capable 
of defending large areas, could be used as part of an affordable, 
competitive next-generation replacement for our midcourse or even 
terminal interceptors. Decisions on sea-based capability and 
international participation in this effort have been deferred until the 
basic KEI technologies have been demonstrated. The restructured Kinetic 
Energy Interceptor activity will emphasize critical technology 
demonstrations and development of a mobile, flexible, land-based ascent 
and midcourse engagement capability around 2011, with a potential sea-
based capability by 2013. A successful KEI mobile missile defense 
capability also could improve protection of our allies and friends.
    We are requesting $82 million in fiscal year 2006 to continue 
development of the Multiple Kill Vehicle (MKV). MKV is a generational 
upgrade to ground-based midcourse interceptors to increase their 
effectiveness in the presence of countermeasures. We look forward to 
the first intercept attempt using MKV sometime in 2008.
    Our flexible management structure allows us to adjust development 
activities based on demonstrated test results, improve decision cycle 
times, and make the most prudent use of the taxpayer's money. Using a 
knowledge-based funding approach in our decision making, we will 
conduct periodic continuation reviews of major development activities 
against cost, schedule, and performance expectations. We have 
flexibility in our funding to support key knowledge-based decision 
paths, which means that we can reward successful demonstrations with 
reinvestment and redirect funds away from efforts that have not met our 
expectations. We have assigned a series of milestones to each of the 
major program activities. The milestones will provide one measure for 
decision-making and help determine whether a program stays on its 
course or is accelerated, slowed, or terminated. This approach gives us 
options within our trade space and helps us determine where we should 
place our resources, based on demonstrated progress. The alternative is 
to terminate important development activities without sufficient 
technical data to make smart decisions. We believe that this approach 
also acts as a disincentive to our contractors and program offices to 
over-promise on what they can deliver.
International Participation
    Interest in missile defense among foreign governments and industry 
has continued to rise. We have been working closely with a number of 
allies to forge international partnerships that will make missile 
defense a key element of our security relationships around the world.
    The Government of Japan is proceeding with the acquisition of a 
multilayered BMD system, basing its initial capability on upgrades of 
its Aegis destroyers and acquisition of the Aegis SM-3 missile. We have 
worked closely with Japan since 1999 to design and develop advanced 
components for the SM-3 missile. This project will culminate in flight 
tests in 2005 and 2006. In addition, Japan and other allied nations are 
upgrading their Patriot fire units with PAC-3 missiles and improved 
ground support equipment. This past December we signed a BMD framework 
Memorandum of Understanding (MOU) with Japan to expand our cooperative 
missile defense activities.
    We have signed three agreements over the past two years with the 
United Kingdom, a BMD framework MOU and two annexes. In addition to the 
Fylingdales radar development and integration activities this year, we 
also agreed to continue cooperation in technical areas of mutual 
interest.
    This past summer we signed a BMD framework MOU with our Australian 
partners. This agreement will expand cooperative development work on 
sensors and build on our long-standing defense relationship with 
Australia. We also are negotiating a Research, Development, Test and 
Evaluation annex to the MOU to enable collaborative work on specific 
projects, including: high frequency over-the-horizon radar, track 
fusion and filtering, distributed aperture radar experiments, and 
modeling and simulation.
    We have worked through negotiations with Denmark and the Greenland 
Home Rule Government to upgrade the radar at Thule, which will play an 
important role in the system by giving us an early track on hostile 
missiles. We also have been in sensor discussions with several allies 
located in or near regions where the threat of ballistic missile use is 
high.
    Our North Atlantic Treaty Organization (NATO) partners have 
initiated a feasibility study for protection of NATO territory and 
population against ballistic missile attacks, which builds upon ongoing 
work to define and develop a NATO capability for protection of deployed 
forces.
    We are continuing work with Israel to implement the Arrow System 
Improvement Program and enhance its missile defense capability to 
defeat the longer-range ballistic missile threats emerging in the 
Middle East. We also have established a capability in the United States 
to co-produce components of the Arrow interceptor missile, which will 
help Israel meet its defense requirements more quickly and maintain the 
U.S. industrial work share.
    We are intent on continuing U.S.-Russian collaboration and are now 
working on the development of software that will be used to support the 
ongoing U.S.-Russian Theater Missile Defense exercise program. A 
proposal for target missiles and radar cooperation is being discussed 
within the U.S.-Russian Federation Missile Defense Working Group.
    We have other international interoperability and technical 
cooperation projects underway as well and are working to establish 
formal agreements with other governments.
                                closing
    Mr. Chairman, I want to thank this committee for its continued 
support of the Missile Defense Program. As we work through the 
challenges in the coming months, we will conduct several important 
tests and assessments of the system's progress. We will continue our 
close collaboration with the independent testers and the warfighters to 
ensure that the capabilities we field are effective, reliable, and 
militarily useful. There certainly are risks involved in the 
development and fielding activities. However, I believe we have 
adequately structured the program to manage and reduce those risks 
using a knowledge-based approach that requires each program element to 
prove that it is worthy of being fielded.
    I believe we are on the right track to deliver multilayered, 
integrated capabilities to counter current and emerging ballistic 
missile threats. For the first time in its history, the United States 
today has a limited capability to defend our people against long-range 
ballistic missile attack. I believe that future generations will find 
these years to be the turning point in our effort to field an 
unprecedented and decisive military capability, one that closes off a 
major avenue of threat to our country.
    Thank you and I look forward to your questions.

    Senator Stevens. Well, thank you very much.
    General Cartwright, the defense budget is coming down, and 
I remember the time I made and I think Senator Inouye made the 
trip up there too. We made several trips to Alaska to accompany 
those who were making the scientific assessment of where these 
ground-based interceptors should be located. It may appear to 
some people that that decision was made because of my 
chairmanship. I do not think so. I was with the scientists when 
they said this is the place. As a matter of fact, they went to 
a place I would not have gone. It was at Fort Greely, which had 
already been closed. That community had been through a trauma 
of one base closure. It did not want to see a buildup and then 
a let down again. But I do believe that the decision has been 
made and we agreed with it.

                          NEAR-TERM PRIORITIES

    I think we now find ourselves in the position, however, 
with the budget coming down. I have to ask, are we clearly 
focused on near-term priorities? It seems to me as you would 
want to balance the budget under these circumstances, that we 
probably should be looking more to the near-term deployment 
priorities. General Obering, I would assume that would be the 
Navy's Aegis system and the ground-based midcourse system. 
Would you comment on that first, General Cartwright, and then 
General Obering. Should we try to maintain that balance, let 
all of these programs go forward, but with emphasis on the 
near-term priorities?
    General Cartwright. Senator, I think you categorized it 
correctly in that the lay down of the system was done based on 
the science involved in intercepting the logical threat zones 
coming toward the United States, but also with a mind toward 
the future of a global system and putting it in the right place 
to make sure that we could advantage ourselves for the entire 
United States and to the extent of the ground-based system, 
that we could protect our deployed forces and allies, that it 
was in its best position. We have evolved it that way, setting 
priorities to cover the largest area as quickly as possible.
    In the balance between the fixed system that defends the 
United States in principal and the system that we have started 
to field and work on that deals with our deployed forces, those 
mobile capabilities like Aegis, we have adjusted the balance. 
We have looked at that balance and we are certainly trying to 
make sure that our investment pattern addresses both the 
defense of the United States and the defense of our forward-
deployed forces in a way that makes sense and can match the 
technologies available to build those systems.

                    NEAR-TERM PRIORITIES--TECHNOLOGY

    I will turn it over to General Obering to talk to the 
technology side of it.
    General Obering. Yes, sir. Senator, you are correct. I was 
not there at the time, but I do know that there were many 
factors that went into the decision to locate the interceptors 
at Fort Greely, not the least of which was soil composition and 
the makeup there and how it supported the silo construction, 
and also its ability to reach and to protect the United States 
from that type of great circle approach.
    Your question about priorities. Sir, we are clearly focused 
on continuing to field the ground-based midcourse interceptors, 
and we have that in our budget to continue to do that and to 
continue to get those missiles into the ground there. We are 
also focused on, as you said, the Aegis with its mobile 
capability, not against an ICBM but against the shorter-range 
missiles, and its flexibility that it brings in the mobility.
    While we are continuing to focus on that, we cannot give up 
the future, though. We have to continue that balance between 
near term and the longer term because building those defenses 
do take time and building these capabilities. So a lot of the 
decisions that we are making today will have consequences 5, 6, 
10 years out that we have to pay attention to because the 
evolving threat environment, as we proceed in the future, and 
the uncertainty of that forced us to have to be able to do 
that. So we are trying desperately to reach that balance 
between the near-term priorities and the longer-term priorities 
that are involved in our development program.
    Senator Stevens. General Cartwright, your comment about the 
defense and offense I think is the most lucid explanation of 
why we have to have a ground-based system in terms of being 
able to do our utmost to catch that first one and to teach the 
person that launched it a very serious lesson. That is 
something that I think misses most people.
    We in Alaska have looked at this as being there to deal 
with places like North Korea where they are so unpredictable 
that no one knows what they will do. They really do not have 
the massive capability of a Soviet Union, but they have got the 
capability, we believe, to launch a missile or missiles at us 
with warheads that would be very dangerous to our survival.

      BALANCED FUNDING--AEGIS, LASER, GLOBAL MISSILE DEFENSE (GMD)

    Now, are you satisfied with the way this funding is set 
forth in this budget in terms of balance? I am trying to get 
back again to the balance between the Aegis system, the laser 
system, and the ground-based system. Has this been worked out 
to your satisfaction?
    General Cartwright. Senator, I think it has. The good news 
here is that in the shakedown, we have been given a voice in 
that discussion so that the warfighter is at the table and has 
an opportunity to make a contribution about that balance. 
Clearly that balance is very important to us. I believe that we 
are on the right path, that we are testing to the right 
criteria to keep it operationally realistic, allowing the 
testing to influence our decisions on what we buy and at what 
pace, and keeping the warfighter in mind, and working the 
balance between all of those three is critical. Like I say, the 
good news here is for STRATCOM we are at the table, we are a 
part of that dialogue, we are allowed to make input, and now we 
are getting to a point where that input has got the judgment of 
people sitting at the console working the system on a day-to-
day basis and making contribution.

                          INFRASTRUCTURE CUTS

    Senator Stevens. Well, General Obering, I am informed that 
in the preparation of this program, there were $80 million from 
the GMD program allocated to another portion of the system. 
Where did that go?
    General Obering. Sir, if you are referring to part of our 
infrastructure cuts, potentially is what you may be referring 
to. If I could for a second, I could put this in context.
    As you heard in my opening remarks, we had a $1 billion 
reduction overall in our program between 2005 and 2006. Even 
given that, the ground-based midcourse defense is $300 million 
more in 2006 than in the President's budget 2005 request for 
2006 in the balance, and it is almost $3 billion across the 
future years defense program (FYDP) for the ground-based 
midcourse defense than it was in the 2005 President's budget.
    Part of that budget reduction, though, was to try to get 
more efficient. General Kadish, my predecessor, did a great job 
in laying the technical foundation for the integration of these 
programs so that we can begin to integrate Aegis and the 
ground-based midcourse and terminal high altitude area defense 
(THAAD) and others. What we have not addressed, though, was the 
programmatic integration across the board such that we could 
begin to combine some of our overhead, if you want to call it 
that, our infrastructure, and getting more efficient in how we 
manage the programs. We had set a target of about $300 million 
a year, beginning in 2006, to try to reduce our overhead by 
those amounts.
    The ground-based midcourse portion of that is around $60 
million to $80 million, in that region. Again, that is a better 
than fair share in terms of its portion of our budget overall. 
But we have taken that across the board, and we certainly hit 
much of our headquarters staff the hardest in this regard.

                    GLOBAL MISSILE DEFENSE SHORTFALL

    Senator Stevens. I am indebted to Ms. Ashworth for her 
research into this. But she tells me that there was a $431 
million shortfall in the President's 2006 budget as far as the 
ground missile defense system. So with the cooperation of the 
chairman, we added $50 million to that supplemental that just 
passed to try and catch up on that. I am sure you are familiar 
with that. Is that shortfall still a realistic number?
    General Obering. Yes. I think if you are referring to the 
cost variance at the end of the current contract, yes, sir. It 
has actually been estimated between roughly that and as much as 
$600 million or more. That is the total cost variance at the 
completion of the contract which is at the end of 2007, which 
represents less than a 5 percent variance in the overall, which 
is about a $12 billion contract value. We have paid down about 
$400 million of that, and so your help there has been 
tremendous in that regard.
    Senator Stevens. Thank you very much.
    Mr. Chairman, do you have a time problem?
    Senator Cochran. No.
    Senator Stevens. Senator Inouye.

                     AEGIS PROGRAM AND FUNDING CUT

    Senator Inouye. Mr. Chairman, if I may follow up. The Aegis 
ballistic missile defense program has been very successful, 
five out of six intercepts, but as a result of the fiscal year 
2006 reduction of $1 billion, about $95 million will be cut out 
of this test program and it might have an impact upon whether 
we have the signal processor, which I have been advised that it 
would be at least a year. Why are we setting aside such a 
successful program where the outcome is almost predictable and 
spending it on other riskier programs?
    General Obering. Yes, sir. First of all, the program has 
been very successful in the testing that we have done to date. 
Now, one of the things we have not done yet is fly against a 
separating target, and that is something that we do need to do 
because that represents the lion's share of the threats that we 
may be facing around the world.
    The reason that we have not done that is because, if you 
recall, the one failure that we did have in the test program 
had to do with the divert attitude control system malfunction 
as we got into the higher pulses that we would need for a 
separating warhead. We have not completely fixed that yet in 
the program. We are still going through the ground testing for 
a new design to validate that we do have a fix. We think we 
have identified the root cause of that and we are taking steps 
to address that, but that is why we do not have a more robust 
profile either in the testing or in our production profile 
because we have not jumped all those technical hurdles yet, but 
we are in the process of doing that.
    The reductions that were taken in Aegis--the program 
director, Admiral Paige, saw some ways that she could combine 
some of the testing that we are doing with our Japan 
cooperative program, also combine some of our software 
deliveries into more efficient drops, and we were able to 
achieve those savings as part of that overall reduction.
    But it is a very successful program. We still have some 
things that we need to address there, though, before we can go 
full bore in that program.

                         AEGIS SIGNAL PROCESSOR

    Senator Inouye. Would it improve the program if you got 
your signal processor?
    General Obering. Yes, sir, it would. It would allow us, 
again, to be able to address more complex threats, and it is 
very definitely a benefit to the Aegis program. There are other 
steps we can take by combining other sensors to achieve the 
same effect, but it certainly helps the Aegis program 
tremendously.
    Senator Inouye. Then it would have some merit for the 
committee to look into that matter.
    General Obering. Sir, we would always enjoy your support. 
Yes, sir.
    Senator Inouye. I would appreciate it if you could give us 
an unclassified version of a memo on the signal processor and 
the capabilities of it and how it would improve your Aegis 
program.
    General Obering. Yes, sir.

                  SPACE-BASED MISSILE DEFENSE TEST BED

    Senator Inouye. The other question I have is on the space-
based missile defense test bed beginning in 2008. Now, we have 
been told that this has a potentially large price tag, 
technological challenges, and tons of people objecting to it. I 
suppose we are going to spend a lot of money and it might 
require setting aside some of the less riskier programs to 
carry out the space program. Why move forward on another 
controversial, costly, and technologically riskier program when 
your other programs have not reached fruition yet?
    General Obering. Well, sir, what you are seeing reflected 
in our program is a very small effort, actually an 
experimentation program, a test bed that we start, relatively 
speaking, overall very small in the budget. The reason for that 
is, as I mentioned earlier, we are trying to deal with the 
world as it may exist in 10 years. In order to be able to 
address that, we believe that there are some prudent 
experimentation steps that we should take because, to be very 
honest with you, sir, in spite of what a lot of people will 
articulate, I am not at all certain that we have tackled all 
the technical issues associated with space-basing of 
interceptors. There are some questions that I think we need to 
answer in terms of the on-orbit storage, so to speak, of 
interceptors. There is a number of issues with respect to 
command and control, with being able to sense the rising 
targets and being able to distinguish those. There are a lot of 
technical challenges that we need to address. I think that 
while it is important to have the debate on the philosophical 
advantage and strategy of having space-based interceptors, it 
would be prudent to lay in a technical experimentation program 
to see if we could even do that.

                 BATTLE MANAGEMENT COMMAND AND CONTROL

    Senator Inouye. General Cartwright, we have been advised 
that at each stage of the missile defense mission, you will 
have combatant commanders in charge of identification, track, 
discrimination, and defending against incoming missiles. How 
are you going to coordinate all of this, especially when the 
time window is not that big?
    General Cartwright. That is one of the key challenges in 
the system when you try to field a global system for which the 
decision windows to decide whether or not you have a threat 
coming at the United States or at our forces. Where did that 
threat come from, where is it going to, what should I use or 
what should the system use to engage it are all decisions that 
have to be made in a very timely fashion and really brings to 
the forefront the technical challenge of a global system.
    The way we have set it up today is that Strategic Command 
provides to the regional commanders the capability. So for 
Northern Command and Pacific Command right now, we are 
providing them with all of the command and control capabilities 
necessary to analyze the threat when it is detected, align the 
sensors so that they can determine where that threat is going, 
characterize that threat, and then align the weapons and use 
the weapons if appropriate. In the case of Pacific Command, 
that capability resides in Hawaii at the commander's 
headquarters there. In the case of Northern Command, that 
capability resides in Colorado Springs with the headquarters 
there. We have built that system. This year sees the system 
being installed in Hawaii. In the first year, in 2004, we had 
the system installed at Northern Command and at STRATCOM with 
situation awareness systems deployed here in Washington to the 
Joint Staff and to the National Command Authority.
    That is what we are working through in the shakedown 
period, understanding the concept of operations and how we will 
deal with a threat that we are watching nine time zones away 
and trying to manage both the sensors, the command and control, 
and the weapons. What we have seen to date is that it is in 
fact working, but we cross several lines of authority between, 
say, Pacific Command and Northern Command and STRATCOM, and in 
the time zones and where the sensors are located versus where 
the weapons are located, et cetera. It is a complex system. 
Like I said, in the shakedown, we have gotten to a point now 
where the soldiers are getting good confidence that the system, 
in fact, can perform, that the commanders can get sufficient 
information to make credible decisions about threats that may 
be presented in the system.

              EXECUTIVE DECISIONMAKING COMMAND AND CONTROL

    Senator Inouye. In this decisionmaking process, I presume 
the President and the Secretary of Defense are involved?
    General Cartwright. Yes, sir. But as you can imagine, this 
is a stressing scenario because the timelines associated with 
those decisions for the stressing threats, which really are the 
threats to Alaska and Hawaii, the timelines are much shorter 
than if you are traveling a greater distance, say, to the 
continental United States.
    Senator Inouye. What would be the decision window for 
launching an interceptor at an incoming ballistic missile, if 
you can give it to us in open session? What is the time?
    General Cartwright. I think we can do this in open session. 
The system is designed so that we can have a characterization 
of the threat in the first 3 to 4 minutes and that we have a 
decision window, depending on where the threat missile is 
moving, probably in the next 3 to 5 minutes in the short 
scenarios like Hawaii and Alaska and expands out as you go 
further. But you are eating up decision time. And so we are 
working through with the Secretary, with General Obering a set 
of tabletop exercises to walk us through and understand where 
the regret factors are, if you do not make a decision on time, 
when does that happen, when are the key windows and the 
vulnerabilities in the decision window that would allow us to 
commit a weapon against a threat in a timely fashion and have a 
secondary opportunity if at all possible.
    As we work those through, then we are also working through 
is it phone calls that we make, do we use the command and 
control system and the displays to inform that National Command 
Authority, how are we going to bring them together? As you can 
imagine, getting the President, the Secretary, the regional 
combatant commander into a conversation and a conference in a 
3-to 4-minute timeframe is going to be challenging. So what are 
the rules that we lay down? That is what the shakedown has been 
about. We are working very hard with the Secretary to lay down 
those rules and understand the risks associated with those very 
quick and timely decisions that are going to have to be made, 
particularly for Alaska and Hawaii when we deal with the North 
Korean threat.
    Senator Inouye. In the Alaska and Hawaii situation, your 
decision window for life and death decisions would be less than 
7 minutes?
    General Cartwright. It would be right in that area, right 
about 7 minutes.
    Senator Inouye. Thank you, sir.
    Senator Stevens. Senator Cochran.
    Senator Cochran. Mr. Chairman, thank you.

                  GROUND-BASED SYSTEM TESTING PROGRAM

    The testing program for the ground-based system has had 
some recent difficulties after a series of successful 
intercepts have proven the capabilities are there in the 
system. What are your plans for future tests? Do you have the 
resources in this budget request that will enable you to carry 
those out?
    General Obering. Yes, sir. I will take that. The aborts 
that we had in our last two tests were caused--in the December 
timeframe, we had a software timing issue. As we got in and 
discovered the root cause, we determined that, first of all, it 
was a rare occurrence, and we have actually flown with that 
condition three times before with the booster. And it was 
correctable with a fix to one line of software code and one 
parameter in that software code.
    The failure that we had to launch in February was due to a 
ground support arm that failed to retract. We now know what the 
root cause of that was. We actually had done some work in the 
bottom of the silo to modify that because that silo was 
configured for a ``BV'' configuration booster, an earlier 
configuration that is no longer in the program, and the 
workmanship allowed some leakage and some moisture to gather in 
the bottom of the silo which caused corrosion around the shims 
in that arm on the hinge and basically bound up the hinge to be 
able to move away. And then we had the wrong size crush block. 
It kind of dampens the retraction of the arm so it does not 
bounce into the interceptor when it is launching. That was the 
wrong size and the wrong stiffness. So we had workmanship 
issues, we had quality control issues that we had to go back 
and address.

                  INDEPENDENT REVIEW TEAM AND TESTING

    I got very angry about that because those are basic 
blocking and tackling that you have to do as part of any 
development program. That is why I chartered the independent 
review team that gave me their findings several weeks ago, and 
this mission readiness task force that is taking those 
recommendations along with their Aegis expertise from that 
program and putting that into a road back, a way ahead to a 
successful test program.
    Some of the recommendations coming out of the independent 
team is that we need to do more ground qualification testing as 
part of our overall flight test program. We need to have a more 
rigorous flight certification, kind of a concurrent but 
independent assessment of our readiness to fly. And we are 
factoring that all into our test program.
    The basic content of our tests will not change in terms of 
what we are planning to do over the next 2 years in terms of 
getting more realistic testing. We are going to launch targets 
out of Kodiak, Alaska like we did the last two tests, very 
successfully, by the way. Tremendous help and team support up 
there. It actually demonstrated that we could take the target 
information and inject that into our operational fire control 
system and get the interceptor to accept that, the flight 
computer and be ready to launch.
    But we are going to do that in the next several years. We 
are going to take an operationally configured interceptor and 
fly it out of Vandenberg, which is an operational site. We are 
going to fly it across the face of the Beale radar, which is an 
operational radar with operational crews. So we are going to 
get more and more realism in our test profile.
    Certainly the resources that we have--we believe that what 
we have programmed will allow us to do that, but that still 
depends somewhat on the recommendations that I will be getting 
from this mission readiness task force in the next several 
weeks.
    General Cartwright. Could I just chime in just for one 
second?
    Senator Cochran. Sure.
    General Cartwright. Particularly on this last part that we 
talked about here of actually using the interceptors, launching 
them from operational sites, using operational crews, using 
operational sensors. These are the things that we on the 
STRATCOM side of the equation really wanted to see brought into 
the test program, and in 2005 and forward, General Obering has 
made a great effort to be able to bring that in because we 
think that is important. It gives the soldier confidence that 
the system will work. It gives us confidence that the netting 
together of the system works. To me that is critical on the 
operational side. So I just want to kind of get that in and 
chime in on that, the support for that. To me that is very 
important.

                  OPERATIONAL AND TECHNICAL READINESS

    Senator Cochran. Is the testing program far enough down the 
track now for you to be willing to use the interceptors that 
are in the ground in case of a crisis in trying to defeat a 
missile attack against the United States?
    General Obering. Sir, I will speak technically to that and 
General Cartwright can speak from an operational perspective. I 
believe the answer to that is yes. I believe that we have 
enough confidence that we will have a pretty good chance of 
that succeeding.
    Now, I would like to fly the kill vehicle in its 
operational configuration. We have not done that. We flew 
prototypes of the kill vehicle in our successful intercepts in 
the past. About 67 percent the same hardware, 60 percent the 
same software, as we flew in our previous test, but we did a 
redesign for manufacturability and for more robustness in that 
kill vehicle. We have not flown that configuration, which I 
would like to do, and that is part of our coming test program 
to get into the air and get the data that we need from that 
testing to give you a full confidence answer.
    General Cartwright. And I would chime in that from an 
operational standpoint for the system that we have today, one, 
we are confident that the crews are trained and can use the 
system and that the command and control system will, in fact, 
work for us; two, that the sensors and the weapons are netted 
in such a fashion that they will, in fact, provide us a great 
opportunity to intercept any kind of incoming threat. As it 
gets more redundancy, the system becomes more resilient, we 
understand better how to employ it, we will get better, but in 
an emergency, we are in fact in a position. We are confident 
that we can operate the system and employ it.

                       INTERNATIONAL COOPERATION

    Senator Cochran. One of the things that occurs to me is 
that we are going to be depending on other nations to cooperate 
and support our efforts to have a successful, comprehensive, 
layered missile defense capability, radar sites in the United 
Kingdom, and elsewhere. Even cooperation in the development of 
the Arrow program is also contributing to our own improved 
knowledge and expertise in this area.
    Are you pleased with the cooperation, generally speaking, 
internationally that we are receiving, or do we have problems 
that need to be addressed in diplomatic ways or any ways that 
we can provide funding in this budget cycle that would be 
helpful to you?
    General Obering. Sir, I will take the programmatic aspects 
of that. As I mentioned, we have signed agreements with Japan, 
with the United Kingdom, and with Australia now on broad 
memorandums of understanding to cover joint cooperative 
research and development, as well as procurement and 
cooperation.
    To give you an example of the level of cooperation and 
interest, we co-host a conference every year, a multinational 
conference. Last year it was in Germany. We had over 850 
delegates from more than 20 countries attend that conference. 
We were able to conduct bilateral discussions with many of the 
nations there, looking at what they are interested in and what 
they bring to the table. So I do see a rising tide of interest 
in missile defense. And I see concrete actions like the 
Japanese have taken and the investments that they have made in 
their budget for missile defense because they view the threat, 
I believe, similar to the way that we do, and the cooperation 
that we have received in the United Kingdom with the placement 
and the upgrade of the Flyingdales radar that is placed in that 
nation. So I think it is a very bright outlook, sir.

                         AIRBORNE LASER PROGRAM

    Senator Cochran. Mr. Chairman, I have just one more 
question I will ask and then others, if it is okay, I will just 
submit for the record.
    The airborne laser program is one that has potential for 
use as part of a comprehensive and layered program of missile 
defense. What is your impression so far? Do you have enough 
knowledge from tests that have been undertaken to lead you to a 
conclusion about the utility and the potential success of an 
airborne laser (ABL) program?
    General Obering. Well, sir, we achieved two major 
milestones in that program over this last year. The first light 
in the laser was extremely significant because we had a lot of 
critics in the past believe that that could never be done, 
which is the simultaneous ignition of those laser modules to 
get the power that we need to make this a very viable weapons 
system. We achieved that. We were able to achieve first flight 
of the heavily modified, in fact, the most heavily modified 747 
in history.
    We are continuing with the lasing test today as we speak, 
and we are continuing with the flight test where we begin to 
unstow the ball in the front of the aircraft. That should be 
coming in the next several weeks. So we are gaining confidence. 
We have tackled all of the major technical questions with 
respect to the operation of the system.
    But there is still a long way to go between that and saying 
that we would have a viable operational capability. That is 
where we are today. As we go beyond these first major steps, 
tear down the laser, reassemble it on the aircraft, and then 
fly the joint weapons system, as I said, in the 2007-2008 
timeframe, that is when we will have the real confidence to 
move forward. We are setting up a series of decision milestones 
then that we can provide to the Department, to the 
administration based on knowledge-based results from those 
tests.
    Senator Cochran. Thank you, Mr. Chairman.
    Senator Stevens. Thank you, Mr. Chairman. Glad to have you 
here.

                    OPERATOR EDUCATION REQUIREMENTS

    Pardon my cold here a little bit, General.
    I had a briefing at one place we will not talk about, but 
sitting was this young operator. He demonstrated how he would 
shift from one incoming missile to another one. I said, you 
know, that is pretty fast. He says, it is nothing like 
Nintendo, Senator. I want to ask a little bit about the 
educational requirements now. Are you running into problems 
with regard to educational requirements for the people who will 
man the system?
    General Cartwright. I can ask General Dodgen back here who 
has the lead in the training side of this, but as I have, like 
you, gone out and sat and talked with these young soldiers as 
they work the consoles, it is not like Nintendo, but their 
minds tend to pick up the displays and all of the information 
and process it in ways that leaves me in awe, to tell you the 
truth. They are very good at it. They grew up understanding how 
to look at a screen and take in large amounts of information 
and process it and consistently come out with the right 
answers.
    When we started into the training program, as you always 
do, whether it is an aircraft or a radar site, what do you 
display that cognitively will get the right information when 
you go into sensor overload in your brain, when people have a 
sense of urgency, when people are yelling in the back of the 
room? What gets into your head and do you make the right 
decisions? Part of our shakedown has been taking each operator 
up to a point of stress where they are at overload and then 
seeing what decisions do they make, what information do they 
actually use in those times of stress, and is it presented to 
them in a way that they will retain it. We are pretty confident 
that we have got the displays about right and the cognitive 
reaction to those displays, that they make the right decisions 
time and time again. We have multiple people on those consoles 
to ensure that we are making those decisions right.
    But my sense is we have, in fact, got a good cadre of 
people, that the training regimen is replicatable and can be 
exported to a broader group of people. As you know, we are 
using Guard and Reserve people to do this, soldiers, and they 
are doing a great job with it. My sense is we do have the right 
people, the right skills, and that they can retain them and we 
can teach them on a sustaining basis.
    Senator Stevens. Going on from that, Senator Inouye and I 
were in the Persian Gulf War the night a young man on Joint 
Surveillance and Target Attack Radar Systems (J-STARS), which 
was deployed during the test phase, as a matter of fact, 
noticed that the headlights were going the wrong way. They were 
going north not south. It was his immediate perception of that 
that changed the course of that war.

                      AIRBORNE LASER APPLICATIONS

    This is now getting to the point where this airborne laser 
system comes into play here too. Do you believe that that has 
applications beyond missile defense?
    General Cartwright. Sir, as we understand both what the art 
of the possible would be in an energy-based system that moves 
at the speed of light and the range at which we could apply it, 
we are starting to look at the feasibility of other 
applications for that kind of technology, whether it be 
airborne, ground-based, mobile. We are looking at a wide 
variety of opportunities that could be presented by having that 
kind of technology and starting to explore them. But we are 
still very early in the R&D phase. So these are feasibility 
studies. These are things that we are using, say, our 
universities, our military universities, to start to think 
about, how could you use this kind of a weapon in more than 
just the missile defense role.
    Senator Stevens. My last question. Many people have said to 
me the real problem here is how to hit a bullet with a bullet 
from 1,000 miles away. Does the airborne laser change that 
equation?
    General Cartwright. My sense is it gives you more decision 
time because the weapon actually moves at the speed of light. 
So the first chance to strike the bullet, so to speak, to the 
last chance, you have more opportunity, more decision time, 
more chance for a second shot if the first one did not make it. 
We are trying to understand how precise do we have to be with 
this type of weapon. How much makes a difference? Is it 
millimeters? Is it bigger than that? We do not have those 
answers yet. But at the end of the day, the hope is that, one, 
you have more opportunities, larger decision time, more 
opportunities to make the right decision, and if you miss, for 
whatever reason, a malfunction or an aiming problem or 
something else, the opportunity to have subsequent shots is 
increased.
    Senator Stevens. Is it possible to separate that beam as it 
goes out so there is more than one opportunity to strike the 
incoming missile?
    General Obering. Sir, the aircraft has the ability to hit 
more than one missile. I cannot go into much more detail than 
that, but it does have the ability to do so.
    Senator Stevens. Well, you are in a very exciting area. As 
an old silo jockey, I envy you. Thank you very much.
    Senator Inouye.

              TERMINAL HIGH ALTITUDE AREA DEFENSE TESTING

    Senator Inouye. Testing for THAAD has been continually 
slipping. Can you tell us in this hearing what the causes are 
and what your new schedule is going to be?
    General Obering. Yes, sir, I can. As you may recall, in 
August 2003, there was series of explosions at a motor supplier 
in California, in San Jose. It was the Chemical Systems 
Division of Pratt and Whitney. Now, unfortunately, that 
supplier handled all of THAAD's motors, and in the recovery 
from that, requalifying another supplier and moving out of that 
facility had an impact on the program and began to delay its 
return to flight test.
    Also, the THAAD program, as I think you may be aware of, 
Senator, was plagued with quality control problems in its past 
in the 1999-2000 timeframe and the redesign that it went 
through, which I think is going to be very successful, and the 
manufacturability improvements that have been made have taken 
time. It is the reason it has not been back in flight.
    It is now finished with almost all of its ground 
qualification testing. The flight test missile is in assembly 
as we speak in Troy, Alabama and will be shipped out for flight 
testing. We anticipate that to be by the end of June to return 
to flight, and then we look forward to an intercept attempt, 
after a series of guided flights. By the end of this calendar 
is what our plan is.
    I believe that what I have seen--in fact, to be very frank 
with you, after I saw the quality control problems that we 
experienced on the ground-based midcourse system, I sent an 
audit team out to the contractor facilities for that program. I 
also sent an audit team to take a look at the THAAD program 
before flight to see if we had any problems, and I got a pretty 
glowing report coming back from there. So I am confident that 
we will be able to meet our objectives with that program, but 
as you said, the primary cause of that slippage was the 
recovery from that unfortunate explosion.
    Senator Inouye. So you think you are on track now.
    General Obering. I think so, yes, sir.

      MISSILE DEFENSE AGENCY $1 BILLION CUT AND PROGRAMS AFFECTED

    Senator Inouye. Now, the Missile Defense Agency has been 
told to take out $1 billion. What programs do you believe will 
be impacted the most, if you can tell us?
    General Obering. Sir, we tried to, as I said, in the past 
balance this across our portfolio in terms of how much risk we 
were taking in the development programs and how much we were 
able to meet our fielding and our support commitments that we 
have made. The kinetic energy interceptor (KEI) program is 
where we have taken the largest amount of risk with this. That 
was in part due to two reasons.
    One is because the inception of that program was as an 
alternative to the airborne laser, a risk reduction program for 
the airborne laser. That was at the recommendation of the 
Defense Science Board in 2002. We had laid in a fairly robust 
acquisition program for the kinetic energy interceptor. That 
included land-based and sea-based aspects to that. I felt that 
we were getting out in front of our headlights a little bit too 
much, so to speak, much like we had done on airborne laser. We 
did the same thing. We were spending money 2 years ago on 
airborne laser, worrying a lot about the operational support of 
that program before we had ever even generated first light out 
of the laser. We felt like that that had to be refocused, and 
that is what General Kadish and I did last year and we were 
successful in doing that.
    We did much the same thing on KEI. What is going to make 
this program work is a very high acceleration booster, much, 
much, much faster in acceleration than the ground-based 
interceptor that we have today or Aegis or any of the others. 
So they had to demonstrate to me the ability to do that before 
we make them a full-blown acquisition program, number one.
    Number two, if they are able to do that, it provides us 
some options for the Department on midcourse and even terminal 
phases because of that performance. It begins to expand our 
envelope, so to speak, that we can use. Even if we are 
backfilling missiles and silos in Fort Greely with this 
missile, it gives us that kind of capability.
    So that is where we took the lion's share of the money in 
terms of that cut. That is also why you see that we did not 
terminate anything because I felt that we needed to balance our 
portfolio out.
    Senator Inouye. In cutting out $1 billion, do you believe 
you had to cut out some real flesh, muscle?
    General Obering. Well, what I would say that we did, sir, 
is we just accepted more risk in certain areas. We tried to and 
we did adhere, for the most part, to our fielding commitments, 
which is really the muscle and the flesh that you are referring 
to.
    Senator Inouye. Well, I thank you very much. We will do our 
very best, sir.
    General Obering. Thank you.
    Senator Inouye. Thank you, Mr. Chairman.
    Senator Stevens. Thank you very much.
    Senator Cochran, do you have any further questions?
    Senator Cochran. No.

                            OUT-YEAR FUNDING

    Senator Stevens. We thank you again. I really want you to 
know that I worry a little bit about the out-year funding with 
what is happening right now. I do hope that you will keep in 
touch with us as we go through this work on this subcommittee 
to see if we can find some way to alleviate some of that strain 
in the out-years by a proper allocation of the money now. I do 
not think we can get any more money. He has the problem now.
    I do think we should make certain that the money in the 
near term is directed toward really being able to get a robust 
system in the near term. I can tell you that when I am home, 
everyone reads the papers about what is happening in North 
Korea. It is a very solid worry for those of us, I think in 
Hawaii probably to a lesser extent, but the offshore States do 
worry about that potential they have already. We believe they 
have it already. I cannot get into too much of that here today. 
But we want to work with you in every way possible to assure 
the near-term completion of the test phase, if we can. So call 
on us if there is anything we can do.

                     ADDITIONAL COMMITTEE QUESTIONS

    We look forward to trying to have the subcommittee take a 
look at the ground-based laser again this year. We did that 3 
years ago and I think we ought to play catch-up.
    We do thank you, General Cartwright, General Obering.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
           Questions Submitted to General James E. Cartwright
               Question Submitted by Senator Ted Stevens
                    ground-based mid-course program
    Question. What additional military capabilities would you like to 
see within the Ground-Based Mid-Course Program? Would you use these 
Ground Based Interceptors if a missile were launched at the United 
States? In your opinion, how many interceptors does the United States 
need?
    Answer. Today, we have a thin line Ground Based Mid-Course Defense 
System. Our focus for additional capabilities in the near-term is to 
increase the redundancy of the sensors and command and control 
components so we are not reliant on a single string.
    Although the system is still rudimentary, I am confident that our 
crews are well trained and that the network of sensors, weapons, and 
command and control is configured to optimize success. In an emergency, 
we could employ Ground Based Interceptors against a missile launched at 
the United States. The number of interceptors needed is an issue under 
constant study and will continue to evolve as the threats develop and 
ballistic missile technology continues to proliferate.
                                 ______
                                 
             Question Submitted by Senator Pete V. Domenici
       conventional capabilities robust nuclear earth penetrator
    Question. General Cartwright, it is my understanding that as part 
of the expanded responsibilities of Strategic Command, your 
organization is directly involved in discussions concerning Robust 
Nuclear Earth Penetrator (RNEP).
    As you know, the program was not funded for fiscal year 2005, but 
the budget for next year requests $8.5 million to continue the study. I 
am interested in your views about the conventional capability of RNEP.
    Would the RNEP sled-test data inform us also as to the safety and 
reliability of a conventional penetrator capability? Please discuss 
your views as to why this is important.
    Answer. The Robust Nuclear Earth Penetrator (RNEP) study was 
initiated to determine the technical feasibility of a guided, 5,000-
pound class nuclear earth penetrator capable of surviving penetration 
into the hard surface geologies that lie above most strategic hard and 
deeply buried targets. Data from the RNEP sled test supports nuclear or 
conventional weapons.
    Modeling and simulation developed in the study predict the transfer 
of loads to internal hardware components. The sled test will provide 
critical empirical data to validate these models and simulations for 
both conventional as well as nuclear weapons.
                                 ______
                                 
            Question Submitted by Senator Richard C. Shelby
   joint functional component command for integrated missile defense
    Question. General Cartwright, I understand that U.S. STRATCOM has 
been assigned new missions over the past few years. As a result of 
these new missions, one of which is missile defense, you are presently 
taking steps to stand up Joint Functional Component Commands (known as 
JFCCs) for each of the new missions. Since today's hearing is focused 
on missile defense, I would like to focus on the JFCC for Integrated 
Missile Defense. I certainly understand that as a Combatant Commander, 
a primary focus must be placed on enhancing and fielding systems such 
as Patriot and the Ground-Based Midcourse Defense System. However, I am 
sure that you would agree that emphasis must be placed on developing 
the next generation of missile defense systems. Please share with the 
committee the process and agreements you have with the Missile Defense 
Agency regarding how technology development for future systems are 
prioritized and funded.
    Answer. It is important the Combatant Commanders have an input into 
the development of future capability. We have addressed this process 
from two aspects to ensure we are capable of effectively advocating for 
future needs. First, the Warfighter Involvement Process was developed 
in concert with the Geographic Combatant Commanders' staffs and Missile 
Defense Agency (MDA) to provide the forum and framework to integrate 
Ballistic Missile Defense System users into the capability development 
and acquisition processes at MDA. Second, my Joint Functional Component 
Command for Integrated Missile Defense has recently concluded an 
agreement with MDA that defines their respective roles and 
responsibilities for advocacy, of advanced concept and technology 
demonstrations. It is through close working relationships such as these 
that we will ensure science and technology programs are prioritized and 
funded to meet our needs in the 10 to 15-year timeframe. I am confident 
we can work effectively with MDA to successfully field the next 
generation of missile defense systems.
                                 ______
                                 
    Questions Submitted to Lieutenant General Henry A. Obering, III
               Questions Submitted by Senator Ted Stevens
    Question. The Administration is fielding the Navy's Aegis Missile 
Defense System and the Ground-Based Midcourse System. Do these remain 
your near-term deployment priorities? Does your budget reflect those 
priorities and your commitment for enhanced testing?
    Answer. Yes, our near-term priority continues to be fielding these 
elements of the Ballistic Missile Defense System (BMDS). In 2004 we 
began fielding the initial elements of the Block 2004 BMDS. In 2005 we 
improved this capability by adding more Ground-Based Interceptors and 
the first Standard Missile-3 (SM-3) missiles. In fiscal year 2006 our 
objective is to complete the development, fielding and verification of 
Block 2004 and begin fielding the next increment of missile defense 
capability, Block 2006. This Block will add 10 Ground-Based 
Interceptors at Fort Greely as well as an Upgraded Early Warning Radar 
in Thule, Greenland and another Forward Based X-Band Radar. We also 
plan to deliver additional SM-3 missiles, and continue upgrading Aegis 
cruisers and destroyers.
    All of this work involves continued development and deployment of 
near-term BMDS assets and this priority is reflected in our fiscal year 
2006 budget request. Our budget includes about $400 million in fiscal 
year 2006 to complete the initial Block 2004 fielding and about $4.9 
billion for the development and fielding of Block 2006.
    Our commitment to enhanced testing is also a priority that is 
reflected in our fiscal year 2006 budget request. Resources for test 
and evaluation are included in our Test & Targets Program Element as 
well as the Program Elements for individual BMDS elements. Total 
funding for test and evaluation activities is about $2.78 billion in 
fiscal year 2006 or about 35 percent of our budget request.
    Let me note that the recent interceptor launch aborts in IFT-13C 
and IFT-14 in the Ground-Based Missile Defense (GMD) program have 
reinforced my commitment to our testing program. I have chartered an 
Independent Review Team (IRT) to review our test processes, procedures 
and management and they have reported back to me with a series of 
specific recommendations. In addition, I have appointed Rear Admiral 
Kate Paige as Director for Mission Readiness. She is leading a Mission 
Readiness Task Force and has full authority to implement the 
corrections needed to ensure a successful flight test program.
    Question. It is very important that we do everything possible to 
get the most capability we can out of our missile defense systems, such 
as the Ground Based Interceptor (GBI), that we have already invested in 
so heavily. What are your plans for spiral development of the GBI, and 
how much funding do you have in the fiscal year 2006 budget and 
throughout the out-years for upgrading the capabilities of the GBI? Is 
this sufficient?
    Answer. The Ground Based Interceptor spiral development strategy 
from fiscal year 2006 through fiscal year 2011 capitalizes on 
concurrent efforts to field additional interceptors while incorporating 
performance upgrades, as well as reliability, maintainability and 
producibility improvements. As we deploy and operate the Limited 
Defensive Operations capability, these development upgrades ensure that 
system limitations in operational performance, availability, or 
sustainability will be addressed. Additionally, the development program 
will ensure the interoperability of the Ground Based Interceptor with 
the other evolving elements of the Ballistic Missile Defense System and 
ensure that the technical capability of the Ground Based Interceptor 
will continue to improve and mature to meet the developing threat.
    Development upgrades to be tested and fielded in fiscal year 2006 
and fiscal year 2007 include Orbital and Lockheed Martin booster 
software builds; an Exoatmospheric Kill Vehicle processor upgrade; 
Exoatmospheric Kill Vehicle software algorithm enhancements; booster-
aided navigation using booster Global Positioning System to improve 
interceptor accuracy; sensor manufacturing improvements and sensor 
enhancement for longer acquisition range; and configuration changes 
necessary to address improved shelf life/reliability. Development 
upgrades planned for fiscal year 2008 through fiscal year 2011 will 
focus on the expansion of the number and capability of Ballistic 
Missile Defense System Ground Based Interceptor Engagement Sequence 
Groups, Warfighter enhancement options, and improved reliability, 
availability, and maintainability. Development program activities are 
being closely coordinated with sustainment activities to ensure maximum 
feedback from the fielded architecture into the development effort.
    Ground Based Interceptor component development is funded within the 
Ground Based Interceptor portion (which also funds flight and ground 
test interceptors, modeling and simulation development, common silo and 
common Command Launch Equipment development, launch complex ground/
system testing, verification/validation and accreditation activities) 
of the Ground-Based Midcourse Defense development and test project. I 
attached a copy for the record of a table that provides the budgeted 
and planned amounts for Ground Based Interceptor component development 
from fiscal year 2005 through fiscal year 2011. I believe these amounts 
are sufficient.

 BUDGETED AND PLANNED AMOUNTS FOR GROUND-BASED MIDCOURSE DEFENSE PROGRAM AND GROUND BASED INTERCEPTOR COMPONENT
                           DEVELOPMENT FROM FISCAL YEAR 2005 THROUGH FISCAL YEAR 2011
                                            [In thousands of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                    Fiscal Year--
                                    ----------------------------------------------------------------------------
                                        2005       2006       2007       2008       2009       2010       2011
----------------------------------------------------------------------------------------------------------------
Total GMD Budget...................  3,318,623  2,298,031  2,701,940  2,473,388  2,064,754  1,895,820  1,562,709
Total Development and Test.........  2,019,600  1,392,609  1,503,841  1,065,476  1,029,220  1,153,500  1,229,709
GBI (Includes Test GBI Assets).....    621,577    359,900    515,300    413,325    399,400    383,500    388,225
GBI Component Development..........    200,800    182,100    198,400    171,300    145,400    132,700    135,600
----------------------------------------------------------------------------------------------------------------

    Question. Have you discovered anything that would indicate that the 
GMD Technology does not work or do we still have the confidence in the 
interceptors that have been fielded at Fort Greely and Vandenberg Air 
Force Base? How do you plan to get GMD testing back on track? What will 
it cost to implement the recommendations of the Graham Panel?
    Answer. In light of the two recent tests in which interceptors 
failed to launch, I chartered the Independent Review Team in February 
to examine the failures in recent integrated flight tests of the 
Ground-Based Midcourse Defense (GMD) element of the Ballistic Missile 
Defense System (BMDS). Dr. William Graham, Dr. William Ballhaus, and 
Major General (United States Army, Retired) Willie Nance (assisted by 
Dr. Widhopf and Mr. Tosney of Aerospace Corporation) were directed to: 
review analysis of the failures associated with Integrated Flight Tests 
10, 13C, and 14; understand the causes of Ground-based Midcourse 
Defense failures; determine any impact of these failures and other 
problems with the Ground-Based Interceptors and ground support 
equipment located at Fort Greely, Alaska and Vandenberg Air Force Base, 
California; review the pre-flight preparation and test execution 
process and provide recommendations as appropriate; and review in 
detail all actions required for a successful launch.
    The Independent Review Team completed its investigation and 
provided its outbrief to the Missile Defense Agency on March 31, 2005. 
The team determined that the inherent system design was sound and had 
been demonstrated to be effective in previous tests. The team also 
determined that in order to achieve a fully operational missile defense 
system, Ground-based Midcourse Defense needs to enter a new phase, one 
that emphasizes performance and reliability verification. Key 
recommendations include: establishing a more rigorous flight readiness 
certification process; strengthening systems engineering; performing 
additional ground-based qualification testing as a requirement for 
flight testing; holding contractor functional organizations accountable 
for supporting prime contract management; and assuring that the Ground-
based Midcourse Defense program is executable.
    I concur with their findings and recommendations. To focus on these 
and several other initiatives to improve our mission assurance and 
quality control processes throughout the Ballistic Missile Defense 
System, I chartered Rear Admiral Kate Paige as Director of Mission 
Readiness, with responsibility for overarching mission readiness. She 
leads a small, highly experienced Mission Readiness Task Force 
chartered in part to develop a plan for the next few flight tests, 
including objectives and schedules. This flight test plan is part of a 
larger plan, which addresses processes and procedures to enhance the 
verification of operational readiness of the Ground-based Midcourse 
Defense weapons system. The Independent Review Team report will be one 
of the many of inputs she uses to chart the way ahead. The Mission 
Readiness Task force recommendations will be available in June and will 
include cost and schedules for a new Ground-Based Midcourse Defense 
program plan. I will act upon these recommendations in the most 
effective manner possible.
    Question. I'm pleased that Airborne Laser (ABL) has made so much 
progress the last year, although much work remains to be done. Do these 
accomplishments give you confidence that the program can continue to 
overcome its remaining challenges?
    Answer. Yes. The two recent milestones were the culmination of a 
series of significant risk reduction activities including risk 
reduction demonstrations and component/subsystem demonstrations. The 
first laser light in the Systems Integration Lab was completed on 
November 10, 2004. The first aircraft flight with the combined Battle 
Management, Command, Control, Communications, Computers, and 
Intelligence and Beam Control/Fire Control systems was completed on 
December 3, 2004. The remaining program activities, with key knowledge 
points identified annually will continue to build our confidence in 
overcoming the remaining challenges on the program.
                                 ______
                                 
               Question Submitted by Senator Thad Cochran
    Question. I have been informed that Admiral Mullen, the President's 
nominee to be the next Chief of Naval Operations, views missile defense 
as a core Navy mission. As you noted in your testimony, the Navy has 
already deployed an Aegis cruiser with a midcourse defense capability, 
in addition to the Aegis system's surveillance and tracking 
capabilities. The Kinetic Energy Interceptor program offers the 
opportunity to expand on these mobile capabilities, and expand the 
layered system by providing a system that would engage its target 
during the boost phase. Could you update us on the progress of the 
Kinetic Energy Interceptor program?
    Answer. The Kinetic Energy Interceptor program is on track to 
demonstrate key boost/ascent phase intercept capabilities this year as 
incremental steps towards a 2008 decision as to if and how to proceed 
further. We have in the field today a mobile Kinetic Energy Interceptor 
Battle Management, Command Control and Communications prototype that is 
demonstrating, with real-time and playback data, our ability to 
generate rapid and accurate fire control solutions with overhead sensor 
data. Next year we plan to upgrade this operational prototype to 
integrate and fuse Ballistic Missile Defense System Forward Based X-
band radar data with the overhead sensors. This Kinetic Energy 
Interceptor fire control capability investment will pay dividends for 
the entire Ballistic Missile Defense System by improving our ability to 
track, type, and predict threat trajectories in the early phases of 
flight.
    Our interceptor development team recently completed a wind tunnel 
test series and the composite case winding and cure of our second stage 
booster motor. We are on schedule for a late August/early September 
2005 static firing of a tactically-representative (same burn time and 
size as the objective design) second stage with a trapped-ball thrust 
vector control system. A tactically-representative first stage static 
firing with a flex-seal thrust vector control system is planned for 
January 2006. The interceptor team will complete an additional eight 
static fires (four with each stage) prior to executing the full-scale 
booster flight test in fiscal year 2008.
    The Kinetic Energy Interceptor specification requires a common 
interceptor design for land and sea basing operations. Sea-basing 
offers unique battlespace access, taking maximum advantage of KEI's 
mobility and its resulting ability to intercept missiles in their boost 
and ascent phases. We are working with the Navy to assess alternative 
platforms for this mission, including cruisers, destroyers and 
submarines. We expect to make a joint decision on a Kinetic Energy 
Interceptor platform strategy in late fiscal year 2006, but the 
acquisition of a sea-based Kinetic Energy Interceptor capability will 
not start until after our overall program plans are settled in fiscal 
year 2008.
    We believe that, for modest increases in funding, we can extend 
KEI's boost/ascent capability to provide a flexible, mobile midcourse 
layer to the Ballistic Missile Defense Systems as a complement to fixed 
site Ground-based Midcourse and sea-based Aegis Ballistic Missile 
Defense. As a result, in fiscal year 2006 we are initiating 
requirements definition, concept design and performance assessment of 
the Kinetic Energy Interceptor capability in a mobile midcourse defense 
role (e.g., asymmetric defense of the United States and Allies).
                                 ______
                                 
            Questions Submitted by Senator Pete V. Domenici
             value of test ranges to missile defense agency
    Question. White Sands is perhaps the most unique installation in 
all of DOD and, when combined with Fort Bliss (most of which resides in 
New Mexico) and Holloman Air Force Base, it gives the Department a 
highly valuable venue for combining operations and testing.
    Can you describe the value MDA places on its access to an 
installation like White Sands with its enormous geographic size and 
restricted airspace?
    Answer. MDA seeks to achieve realistic testing environments and 
maintain safety to the maximum practical extent. The large land area, 
accompanying restricted airspace and mobile instrumentation at White 
Sands Missile Range provides an excellent location for the conduct of 
short range tactical ballistic missile intercept tests. In the 1990's, 
we developed the Fort Wingate Launch Complex as a remote target launch 
facility to effectively increase the range of the tactical ballistic 
missile intercept tests. Since that time, we have maintained the land 
lease and evacuation rights to the western and northern expansion areas 
to expand capability and enhance safety. We plan to retain the majority 
of this capability for upcoming Terminal High Altitude Area Defense 
testing in fiscal year 2006.
    Question. Does this access provide the type of realistic testing 
environment needed to collect accurate data for your systems?
    Answer. For short range tactical ballistic missile target profiles, 
White Sands Missile Range's size, restricted air space, and array of 
fixed and mobile instrumentation make it an excellent environment for 
testing. Target launch facilities that MDA added at Fort Wingate allow 
flight profiles of up to 370 kilometers into the range. As test 
envelopes continue to expand, the capability of White Sands Missile 
Range is being exceeded. That requires us to look toward other test 
range options. White Sands Missile Range cannot accommodate the 
trajectory and debris hazard patterns from higher energy medium-range, 
intermediate-range and intercontinental ballistic missile targets and 
interceptors within its boundaries. These scenarios require larger and 
more remote ranges that provide the kind of test scenarios and safety 
that we need.
    Question. How will White Sands contribute to the success of the 
Ballistic Missile Defense System in the future?
    Answer. There will continue to be opportunities to conduct 
Ballistic Missile Defense System tests at White Sands Missile Range. In 
addition to short range tactical ballistic missile tests, the Airborne 
Laser program, whose mission is to intercept targets in the boost 
phase, plans to conduct some initial tests at White Sands Missile 
Range.
    White Sands Missile Range is involved in the development and 
deployment of mobile instrumentation and sensors and provides 
knowledgeable test support personnel to support Ballistic Missile 
Defense System testing as members of the Pacific Range Support Team. 
For example, White Sands Missile Range mobile instrumentation and 
approximately 45 White Sands Missile Range test personnel were recently 
deployed to Kodiak, Alaska in support of Ballistic Missile Defense 
System test operations and MDA plans on continuing to use this type of 
support in the future.
           terminal high altitude area defense test schedule
    Question. It is my understanding that the Terminal High Altitude 
Area Defense (THAAD) missile will return to flight testing at White 
Sands Missile Range this year, and that funding provides for additional 
tests next year.
    What is the THAAD testing schedule for this year and next? What 
will be the nature of those tests?
    Answer. CY 2005 Flight Testing.--THAAD Flight Test (FT)-01, planned 
in summer 2005, is a high-endoatmospheric Control Test Flight at White 
Sands Missile Range (WSMR). This mission will consist of a THAAD 
missile flight without a target to assess missile dynamic flight 
characteristics and vehicle controls in the high-endoatmospheric 
environment.
    THAAD FT-02, planned in late fiscal year 2005, is the first 
integrated system test including all THAAD components (Missile, 
Launcher, Radar and C2BMC). This flight test will be conducted at WSMR 
and will include a virtual target (injected into the radar) in lieu of 
an actual target, and will exercise all functions except the seeker 
endgame.
    THAAD FT-03, planned in early fiscal year 2006, is a Seeker 
Characterization flight with a target in the air, to characterize the 
behavior of the seeker. Although intended as a ``fly by'' against a 
live target, it could result in an intercept. This test will be 
conducted at WSMR against a HERA unitary target at a high-
endoatmospheric altitude.
    CY 2006 Flight Testing.--THAAD FT-04, planned in second quarter 
fiscal year 2006, is an intercept attempt against an exoatmospheric 
HERA separating target to be conducted at WSMR.
    THAAD FT-05, planned in third quarter fiscal year 2006, is a low 
endoatmospheric Control Test Flight at WSMR of a THAAD missile flight 
without a target to assess missile dynamic flight characteristics and 
vehicle controls in the low-endoenvironment.
    THAAD FTT-06-1, planned in fourth quarter fiscal year 2006, is the 
first THAAD flight test at Pacific Missile Range Facility (PMRF). This 
is an integrated element test of a high endoatmospheric intercept 
attempt against a foreign target. It is the first THAAD system test 
against a threat representative target.
    THAAD FTT-06-2, planned in first quarter fiscal year 2007, is an 
intercept flight test mission at PMRF against a mid endoatmospheric 
foreign target.
    THAAD FTT-06-3, planned in first quarter fiscal year 2007, is an 
intercept flight test mission at PMRF against an exoatmospheric unitary 
target.
    Question. Since prior THAAD testing ended in 1999, how has MDA 
incorporated those testing results into today's system to make the 
missile more producible and more reliable?
    Answer. Since we completed testing in the previous phase of the 
program, we have implemented several initiatives that place increased 
emphasis and attention on quality, producibility, and reliability. 
Also, there was a comprehensive independent review conducted late in 
the previous phase of the program and those findings have been 
incorporated into this phase of development. These initiatives include 
an aggressive parts, materials, and processes program; reliability 
growth program; comprehensive closed-loop corrective action system; 
design simplification; enhanced Environmental Stress Screening (ESS); 
verification of critical missile functions (100 percent) prior to each 
flight; enhanced built-in test capability; and increased focus on 
foreign object elimination during assembly.
    We have also made improvements in the area of producibility, such 
as a more modular missile design, use of flex cables, reduction/
elimination of blind mates (or connections hidden behind another 
object), improved production test equipment, and use of automated test 
software. Additionally, we have made changes to improve reliability, 
such as review and approval of all parts and materials during the 
design phase, more robust ESS, extensive qualification of hardware 
beyond expected flight environments, and margin testing of assemblies.
           arrow missile testing at white sands missile range
    Question. I am told that White Sands Missile Range can support 
realistic testing of this shorter range Arrow missile.
    In your opinion, should the United States be supportive of this new 
Arrow program?
    Answer. The current Arrow system, supported by Patriot, has been 
developed and refined to defend Israel against medium-range and most 
short-range ballistic missiles, including SCUD missiles. In fact, 
flight testing in Israel and in the United States has shown the Arrow 
Weapon System to be effective against the short range threat. 
Furthermore, our joint U.S.-Israeli Arrow System Improvement Program 
continues to assess and improve the capability of the Arrow Weapon 
System to meet the evolving threat in the region.
    The proliferation of very short range ballistic missiles and large-
caliber rockets is of great concern to both Israel and the United 
States. At present, the Israeli Patriot system has the capability to 
intercept some of these threats, albeit at a relatively high cost. In 
the United States, the Missile Defense Agency and the military services 
are developing other systems that will add to this capability in the 
future.
    We recognize that developing an effective yet low cost interceptor 
to defend against short range threats will be a significant challenge. 
Recently, Israel began evaluating the feasibility of two concepts for 
low-cost interceptor systems proposed by Israeli industry.
    Question. If so, do you agree that White Sands is the proper venue 
for hosting Arrow tests?
    Answer. It appears upon first examination that White Sands Missile 
Range is a suitable test range to conduct short range ballistic missile 
defense system testing; however, a final determination is contingent 
upon the results of the ongoing feasibility study.
                                 ______
                                 
            Questions Submitted by Senator Richard C. Shelby
    Question. General Obering, I am sure you would agree that the Joint 
Project Office for Ground-Based Midcourse Defense has been an essential 
organization for the development and integration of our system at Fort 
Greely, AK. As the Ground Based Midcourse Defense System continues to 
evolve and mature, what future role do you see for the JPO GMD?
    Answer. The Ground-Based Midcourse Defense Joint Program Office has 
done, and continues to do, a remarkable job in developing, testing and 
fielding our initial defenses against intercontinental ballistic 
missiles. In the process, the Joint Program Office has developed an 
infrastructure and reservoir of experience and talent that we will 
continue to use for missile defense. As we move toward delivery of a 
truly integrated Ballistic Missile Defense System, we need to transform 
the Agency from one comprised of individual programs to one comprised 
of components that we can ultimately integrate into a layered ballistic 
missile defense system. Additionally, we are undertaking infrastructure 
reductions because of decreases in our topline budget over the next 
several years. To effectively deal with these, we are conducting an 
Agency-wide reengineering effort, which we expect to finish by the end 
of this summer. I will at that time inform the Committee of what, if 
any, effect there will be on the Joint Program Office. However, I can 
assure the Committee that the expertise in the Ground-Based Midcourse 
Defense Joint Program Office will not be lost.
    Question. Specifically, do you see their mission and 
responsibilities downsizing over the next year?
    Answer. I believe that the pace of work for the Ground-Based 
Midcourse Defense Joint Program Office will continue to be high during 
fiscal year 2006. There will be an intense workload associated with the 
testing of the system as well as the production of additional 
interceptors. I do see, however, that there will be some changes in the 
Joint Program Office mission and responsibilities because of our 
reengineering and the Ground-Based Midcourse Defense program's 
progress. For example, I see some diminished need for the site 
activation activity in the Joint Program Office. During fiscal year 
2006 Vandenberg Air Force Base and Fort Greely sites will mature and we 
are delaying a decision on a third site until fiscal year 2008. 
Importantly, we will leverage the site activation expertise within 
Ground-Based Midcourse Defense Joint Program Office in order to 
significantly improve Agency-wide efforts for site activation. Finally, 
there will be some consolidating of our functional activities such as 
contracting, security and testing in Huntsville to gain efficiencies 
and take broader advantage of the expertise we have developed in the 
Agency. I do not know how this will affect the Joint Program Office's 
mission and responsibilities. Once we complete the reengineering later 
this summer, I will inform the Committee if there is any downsizing in 
the Joint Program Office's mission and responsibilities.
    Question. Let me follow up on the KEI program. General Obering, are 
there plans in place to stand up a project office for this important 
initiative?
    Answer. We have had a project office in place since we signed the 
development contract with Northrop Grumman in December 2003. I expect 
we will be moving that project office to Redstone Arsenal as part of 
our reengineering effort.
    Question. If so, can you share with the Committee some of the time 
line details?
    Answer. We will be moving the program office responsibility to 
Redstone Arsenal over time beginning in 2006.
    Question. I am concerned about the lack of emphasis within MDA on 
technology development. Technology development funding for sensor 
improvement, better software, faster communications systems, improved 
propulsion systems, lighter and stronger structures, better thermal 
control, enhanced signature discrimination, decoy concepts and 
detection techniques are all vital areas of interest. Does MDA have an 
adequate technology development budget to support spiral development of 
all of your systems?
    Answer. We believe the fiscal year 2006 President's Budget strikes 
the right balance between fielding initial capabilities and developing 
future technologies. The Technology Program Element supports emerging 
technologies, including sensors, propulsion systems, radars, and 
discrimination. It also supports the need to address future threats or 
countermeasures, including technology work on enhanced discrimination, 
laser detection, and radar improvement efforts. Overall for fiscal year 
2006, we remain focused on the specific technology efforts that are 
necessary to field capabilities for the Ballistic Missile Defense 
System.
    Question. Do you have critical technology development requirements 
this budget isn't sufficient to support?
    Answer. No. Our critical requirements are funded and the fiscal 
year 2006 BMD Technology Program Element funding meets near-term and 
far-term requirements for the Ballistic Missile Defense System. 
However, as we focused on technology needed to support the block 
upgrade plan for capability improvements, we made the decision to 
discontinue the Discriminating Sensor Technology, a breadboard Laser 
Radar [LADAR] for Kill Vehicles, after Advanced Measurements Optical 
Range testing for this project concludes. Additionally, we reduced by 
40 percent the number of Laser Technology projects that integrate into 
Airborne Laser and laser radar sensor programs. We also delayed 
prototype demonstration efforts originally planned for the High 
Altitude Airship program due to funding reductions and programmatic 
issues.
                                 ______
                                 
          Questions Submitted by Senator Kay Bailey Hutchison
    Question. General Obering, several years ago the Defense Department 
terminated the Sea-Based Area Theater Ballistic Missile Defense program 
and since that time I believe your agency has been focusing on 
developing and deploying a Sea Based Mid-course capability in your 
Aegis/SM-3 program. It would appear that in situations where our forces 
are projected from the sea into combat operations ashore, you have a 
serious defensive gap that could place our forces in a situation where 
they could suffer undue casualties from tactical ballistic missile 
attacks without an assured lethal terminal capability. Is your agency 
developing a plan and budget to fill that sea-based terminal gap?
    Answer. The Navy and Missile Defense Agency are working together to 
identify options to provide a sea-based terminal ballistic missile 
defense capability. A joint working group was formally assembled in 
January to review recent analyses related to sea-based contributions to 
ballistic missile defense in the terminal phase. The objective of this 
assessment is to propose options that leverage existing Navy and MDA 
development programs in order to provide a mobile sea-based terminal 
BMD capability within the integrated layered ballistic missile defense 
system. The working group is scheduled to report its findings this 
summer, allowing us to make an informed decision in partnership with 
Navy leadership on an appropriate way ahead to address this need.
    Question. I am concerned, General Obering, that with the exception 
of the PAC-3 program, which is a land-based system, that there are no 
funds in the budget to finance a Sea Based Terminal Ballistic Missile 
Defense capability that will give us the same hit-to-kill lethality 
that your agency produced in PAC-3 and SM-3 in either this year's 
budget or in future-year budgets. Are you concerned about this Sea-
Based Terminal gap and if so, what can we do to help you address it?
    Answer. Navy and MDA staffs are working closely to identify options 
leveraging existing Navy and MDA development efforts that can address 
this capability gap. We need to look at this issue in the context of 
the integrated layered system approach MDA is using to develop 
ballistic missile defenses. We have a joint working group that has been 
working this issue over the past several months and will report out 
this summer. We will work closely with Navy leadership to determine a 
way forward when we are better equipped to make an informed decision.
    Question. General, would you mind furnishing for the record what 
the sea-based terminal plan ahead is and the associated budget needed 
to finance it before we mark up the President's Budget Request?
    Answer. The President's fiscal year 2006 Budget Request represents 
the best mix of funding for development and fielding of the Ballistic 
Missile Defense System. The Navy and MDA staffs are working closely to 
lay out potential options for leveraging existing programs to provide a 
sea-based terminal defense capability in future blocks. We anticipate 
being able to make an informed decision on funding requirements in 
fiscal year 2007 and beyond after the joint Navy-MDA working group 
completes their assessment and reports out later this summer.
                                 ______
                                 
            Questions Submitted by Senator Dianne Feinstein
                                  cost
    Question. President Bush has requested $9 billion for missile 
defense for fiscal year 2006. The United States has spent $92 million 
on missile defense since 1983 and the Administration anticipates 
spending an additional $58 billion over the next six years. Some 
experts put the overall price tag at well over $150 million. Given the 
number of national defense priorities we face--providing for non-
proliferation activities, deterrence, homeland security--how do you 
justify spending so much on missile defense?
    Answer. I understand that from 1984 until now the total investment 
in ballistic missile defense made by MDA and its predecessor 
organizations has been about $94 billion. To put that in perspective, 
this is a little more than 1 percent of the total Defense budget. 
Today, the United States has an initial capability to destroy missiles 
heading towards the United States where before we had none. The Block 
2004 BMDS now in place cost about $11.5 billion over the period fiscal 
year 2002-fiscal year 2006. The GAO Report 02-700R estimated damage 
costs for the terrorist attacks of September 11, 2001 alone at $83 
billion. The consequences of an attack by even a single WMD-tipped 
ballistic missile could cost far more.
                        performance and testing
    Question. The missile defense system experienced two test failures 
in December, 2004 and February, 2005. The system was not declared 
operational at the end of 2004 as had been planned by the 
Administration. What criteria will you use to determine whether or not 
the system will be declared operational? When do you believe this will 
occur? Will you move forward with declaring the system operational if 
future tests fail?
    Answer. The initial Ballistic Missile Defense System elements 
planned by the Administration were deployed and operationally available 
at the end of 2004. Those elements could be placed into an operational 
status quickly should the situation dictate, and have been exercised to 
a launch ready status routinely during an on-going series of readiness 
demonstrations. However, the operational availability of the system 
must be balanced against the continuing need for testing and the 
integration of new features which provide expanded capability. But, if 
the nation needs it, we have an emergency capability.
    The Secretary of Defense will make the decision to declare the 
missile defense system operational based on several criteria, including 
but not limited to performance demonstrated during tests. He will make 
that declaration when his confidence in system performance reaches a 
level against the predicted threat he is comfortable with. Conversely, 
he will also make that declaration when the risk from that threat 
increases to the point he is uncomfortable without the protection the 
system provides, limited as it is today.
    When this occurs is difficult to say. Highly visible, successful 
flight tests build confidence in the system, but so do the less visible 
testing of individual components, modeling and simulations which are 
on-going and continuous, and held in conjunction with the war fighters. 
The war fighter's assessment of the system's utility, and their 
willingness to accept it in its current state, also builds my 
confidence.
    Whether or not a subsequent flight test failure would preclude 
declaring the system operational would depend on the root cause of the 
test failure. A failure that identifies an unanticipated problem that 
requires a system-wide reconfiguration could, depending upon risk, 
preclude an operational declaration. A failure due to an individual 
component which can be identified and corrected quickly may not.
    Question. You have said that the system could be ``turned on'' at 
any time, if an emergency arose. Do you have any plans to test the 
system as it would operate in that situation?
    Answer. Yes, the Missile Defense Agency--working closely with the 
Warfighter and testing community--conducts a wide variety of exercises 
and tests of the Ballistic Missile Defense System. For instance, there 
is a continuing exercise program that uses the operational system for 
Ballistic Missile Defense System Capability Readiness Exercises. These 
events are carried out to allow the Warfighters and technicians to 
practice and improve tactics, procedures, processes and checklists for 
such things as bringing the Ballistic Missile Defense System from one 
readiness condition to another. These activities have already 
successfully demonstrated our ability to transition the system from a 
developmental configuration to a defense capable configuration. The 
exercises have also demonstrated the ability of our Combatant 
Commanders to operate the system in the defense capable configuration.
    To characterize the performance of the currently available system, 
we have been conducting and will continue a flight and ground test 
program. The test program will increase the realism of our tests in a 
measured fashion, commensurate with risk and with the constraints of 
flight test range safety, and the needs for engineering data collection 
and evaluation. Although the Ground-Based Midcourse Defense element 
recently conducted two flight tests where the interceptor did not 
launch, there were significant segments of the test that operated 
successfully, providing excellent insight into technical and 
operational performance of those aspects of the system. For example, 
the target warhead configuration and motion was realistic and threat 
representative. The only sensor data allowed into the fire control 
processing was representative of the current operational system. The 
system demonstrated the ability to acquire, to track, classify, do real 
time engagement planning, generate sensor, communication, and weapon 
task plans, and to bring the interceptor to within two seconds of 
launch.
    I have asked Admiral Paige and her Mission Readiness Task Force to 
propose a plan for the next few flight tests, including objectives and 
schedules. This flight test plan is part of a larger plan, which 
addresses processes and procedures to enhance the verification of 
operational readiness of the GMD weapons system. Defining flight test 
objectives and schedules will be a logical part of this ongoing 
process. Over time, we intend to fold in more and more data from 
operational sensors and incorporate additional operational sensors 
(Aegis Ballistic Missile Defense Long Range Surveillance and Tracking 
Destroyers, Upgraded Early Warning Radar at Beale Air Force Base, 
Forward Based X-Band Radar Transportable, the Sea-Based X-Band Radar, 
and others). We plan to begin launching operational missiles 
(configured for test in terms of range safety and data telemetry) from 
operational silos at Vandenberg Air Force Base, California. As the 
Missile Defense Agency further develops the GMD test plan, program and 
procedures, we will continue to work closely with the Operational Test 
agencies and the Warfighter to craft test objectives and scenarios that 
further increase operational realism. The Warfighter is already an 
active participant in all aspects of the ground and flight test program 
and such participation has increased our confidence in the operation of 
the system.
    Question. In other words, will you test the system as it is 
currently being available, so we can get some sense of its capability 
right now? That would mean testing the system with:
  --No prior information on the enemy target, its launch time, intended 
        target, trajectory, or target cluster;
  --No GPS or C-band beacon on the target reentry vehicle;
  --No SBIRS-High or STSS or simulated information from such sources;
  --With only early warning radars, e.g. Aegis, Beale;
  --With no floating X-band radar until it is actually operational;
  --With only DSP for satellite coverage.
    Answer. Yes, the Missile Defense Agency--working closely with the 
Warfighter and testing community--conducts a wide variety of exercises 
and tests of the Ballistic Missile Defense System. For instance, there 
is a continuing exercise program that uses the operational system for 
Ballistic Missile Defense System Capability Readiness Exercises. These 
events are carried out to allow the Warfighters and technicians to 
practice and improve tactics, procedures, processes and checklists for 
such things as bringing the Ballistic Missile Defense System from one 
readiness condition to another. These activities have already 
successfully demonstrated our ability to transition the system from a 
developmental configuration to a defense capable configuration. The 
exercises have also demonstrated the ability of our Combatant 
Commanders to operate the system in the defense capable configuration.
    To characterize the performance of the currently available system, 
we have been conducting and will continue a flight and ground test 
program. The test program will increase the realism of our tests in a 
measured fashion, commensurate with risk and with the constraints of 
flight test range safety, and the needs for engineering data collection 
and evaluation. Although the Ground-Based Midcourse Defense element 
recently conducted two flight tests where the interceptor did not 
launch, there were significant segments of the test that operated 
successfully, providing excellent insight into technical and 
operational performance of those aspects of the system. For example, 
the target warhead configuration and motion was realistic and threat 
representative. The only sensor data allowed into the fire control 
processing was representative of the current operational system. The 
system demonstrated the ability to acquire, to track, classify, do real 
time engagement planning, generate sensor, communication, and weapon 
task plans, and to bring the interceptor to within two seconds of 
launch.
    I have asked Admiral Paige and her Mission Readiness Task Force to 
propose a plan for the next few flight tests, including objectives and 
schedules. This flight test plan is part of a larger plan, which 
addresses processes and procedures to enhance the verification of 
operational readiness of the GMD weapons system. Defining flight test 
objectives and schedules will be a logical part of this ongoing 
process. Over time, we intend to fold in more and more data from 
operational sensors and incorporate additional operational sensors 
(Aegis Ballistic Missile Defense Long Range Surveillance and Tracking 
Destroyers, Upgraded Early Warning Radar at Beale Air Force Base, 
Forward Based X-Band Radar Transportable, the Sea-Based X-Band Radar, 
and others). We plan to begin launching operational missiles 
(configured for test in terms of range safety and data telemetry) from 
operational silos at Vandenberg Air Force Base, California. As the 
Missile Defense Agency further develops the GMD test plan, program and 
procedures, we will continue to work closely with the Operational Test 
agencies and the Warfighter to craft test objectives and scenarios that 
further increase operational realism. The Warfighter is already an 
active participant in all aspects of the ground and flight test program 
and such participation has increased our confidence in the operation of 
the system.
    Question. When do you plan to test against: a. a tumbling warhead? 
b. against more than one target warhead? c. without prior knowledge of 
the target, its trajectory, or the target cluster? d. at night? e. 
without a GPS or C-band beacon on the target warhead?
    Answer. The Missile Defense Agency, working closely with the 
Director of Operational Test & Evaluation, has developed the BMDS test 
bed that significantly improves the test infrastructure by providing 
operational assets to participate in more operationally realistic, end-
to-end ground tests and flight test scenarios. The Missile Defense 
Agency and the Director of Operational Test & Evaluation are working 
with the Operational Test Agency team to increase operational realism 
through the test planning process, consistent with the maturity of the 
Ballistic Missile Defense System test bed. The test bed enables the 
Department of Defense to develop operational concepts, techniques, and 
procedures, while allowing the Operational Test & Evaluation office to 
exploit and characterize its inherent defensive capability. 
``Operational Testing'' is a term typically used for traditional tests 
that are conducted on mature developmental systems by an operational 
test agent. Because of the scope and complexity of BMDS, as well as the 
urgency of the mission, DOT&E, their operational test agents, the BMDS 
operational military commands and MDA have teamed to conduct tests that 
meet all our objectives as we incrementally increase system capability 
through the spiral Block process. The term ``operationally realistic'' 
is used for these combined tests to identify those processes, 
procedures and scenarios that are the same as or closely replicate 
those that will be used in real world operations.
    All operationally oriented testing of complex systems is 
necessarily constrained by such real world issues as the need for range 
safety and to equip the missile with instrumentation to collect data. 
In a system as geographically dispersed as GMD, the issue of test 
geometries vs. operational assets and test launch facilities is an 
added constraint which we are mitigating with the ability to launch 
targets from Kodiak, Alaska, among other initiatives.
    We will continue to work closely with the Operational Test agencies 
and the Warfighters to craft test objectives and scenarios; in 
particular, Warfighters have already begun participating directly in 
ground and flight testing in an operationally realistic manner. As the 
system maturity increases and is demonstrated in test, we will further 
increase the operational realism of the tests, in a measured fashion to 
help us evaluate the system's technical and operational capabilities.
    Question. Why is there no operational testing planned for the 
ground-based mid-course system deployed in Alaska and California, but 
only ``more operationally realistic tests?''
    Answer. The Missile Defense Agency, working closely with the 
Director of Operational Test & Evaluation, has developed the BMDS test 
bed that significantly improves the test infrastructure by providing 
operational assets to participate in more operationally realistic, end-
to-end ground tests and flight test scenarios. The Missile Defense 
Agency and the Director of Operational Test & Evaluation are working 
with the Operational Test Agency team to increase operational realism 
through the test planning process, consistent with the maturity of the 
Ballistic Missile Defense System test bed. The test bed enables the 
Department of Defense to develop operational concepts, techniques, and 
procedures, while allowing the Operational Test & Evaluation office to 
exploit and characterize its inherent defensive capability. 
``Operational Testing'' is a term typically used for traditional tests 
that are conducted on mature developmental systems by an operational 
test agent. Because of the scope and complexity of BMDS, as well as the 
urgency of the mission, DOT&E, their operational test agents, the BMDS 
operational military commands and MDA have teamed to conduct tests that 
meet all our objectives as we incrementally increase system capability 
through the spiral Block process. The term ``operationally realistic'' 
is used for these combined tests to identify those processes, 
procedures and scenarios that are the same as or closely replicate 
those that will be used in real world operations.
    All operationally oriented testing of complex systems is 
necessarily constrained by such real world issues as the need for range 
safety and to equip the missile with instrumentation to collect data. 
In a system as geographically dispersed as GMD, the issue of test 
geometries vs. operational assets and test launch facilities is an 
added constraint which we are mitigating with the ability to launch 
targets from Kodiak, Alaska, among other initiatives.
    We will continue to work closely with the Operational Test agencies 
and the Warfighters to craft test objectives and scenarios; in 
particular, Warfighters have already begun participating directly in 
ground and flight testing in an operationally realistic manner. As the 
system maturity increases and is demonstrated in test, we will further 
increase the operational realism of the tests, in a measured fashion to 
help us evaluate the system's technical and operational capabilities.
    Question. Isn't it useful to test a system under operationally 
realistic conditions, i.e., operational testing, to determine the true 
effectiveness of the system?
    Answer. Yes. Testing the BMDS in scenarios that closely approximate 
all the conditions and environments of actual operational missions 
provides the fullest demonstration of system effectiveness. The BMDS 
test program will progressively increase scenario realism, as the 
system matures, to the extent possible within the constraints of flight 
safety and geographical limitations of the test ranges. BMDS tests 
include both developmental and operational test objectives and 
requirements. In general, the BMDS test program will increase 
operational realism with each successive test as outlined in the Joint 
MDA and DOT&E document ``Ballistic Missile Defense System Response to 
Section 234 Increasing Operational Realism'' dated April 4, 2005.
    Question. If the missiles deployed in Alaska and California are 
``better than nothing'' and the United States is wary of a North Korean 
ballistic missile threat, why isn't the system turned on 24/7?
    Answer. The fielded Ballistic Missile Defense System Test Bed 
supports the continued development and testing of new and evolving 
Ballistic Missile Defense System technologies. We have an emergency 
capability now, and we are making progress towards being able to 
operate on a 24/7 basis. The system has not been turned on 24/7 
because, since October 2004, we have been in a ``shakedown'' or check-
out period similar to that used as part of the commissioning of a U.S. 
Navy ship before it enters the operational fleet. We work closely with 
U.S. Strategic Command and the Combatant Commanders to certify missile 
defense crews at all echelons to ensure that they can operate the 
ballistic missile defense system if called upon to do so. We have 
exercised the command, fire control, battle management and 
communication capabilities critical to the operation of the system. The 
Aegis ships have been periodically put on station in the Sea of Japan 
to provide long-range surveillance and tracking data to our battle 
management system. We have fully integrated the Cobra Dane radar into 
the system, and it is ready for operational use even as it continues to 
play an active role in our test program by providing data on targets of 
opportunity. Finally, we have executed a series of exercises with the 
system that involves temporarily putting the system in a launch-ready 
state. This has enabled us to learn a great deal about the system's 
operability. It also allows us to demonstrate our ability to transition 
from developmental testing to operational support and back. This 
enables us to continue to improve the capabilities of the system over 
time, even as we remain ready to use its inherent defensive capability 
should the need arise.
                              interceptors
    Question. Can you explain to me why we should continue to purchase 
additional ground-based interceptors, specifically why we should 
initial funding for #31-40, when we have not had a single successful 
test with this model?
    Answer. North Korea's Taepo Dong-2 intercontinental ballistic 
missile could deliver a nuclear warhead to parts of the United States 
in a two-stage variant and all of the North America in a three-stage 
variant. This missile may be ready for testing. The Defense 
Intelligence Agency has assessed that Iran will have the technical 
capability to develop an ICBM by 2015, though it is not clear that they 
have decided to field such a missile. Additionally, according to the 
Warfighters, one of the primary system limitations is that there are 
too few interceptors. Finally, all of our testing indicates that the 
interceptor design is sound. Our recent failures have not been related 
to the interceptor design, and though disappointing, I do not think 
these failures warrant a costly break in our plan for continued 
development and testing of the interceptor. We have already stretched 
out the delivery of the Ground Based Interceptor 21-30 buy to the 
greatest extent possible without causing a break in manufacturing. If 
deficiencies are discovered in future flight or ground testing, we have 
time to accommodate them.
    Question. You have testified previously [before the SASC, April 7] 
that it would cost $260 million to $300 million to reconstitute the 
ground-based interceptor booster production should it be shut down. Can 
you please break down those costs in detail--how much would be fines we 
would pay, how much would be restarting the line?
    Answer. The primary driver for the cost of a break in the 
manufacturing line is the length of time the line is not operational. 
The longer the shut down period, the greater the increased costs for 
reconstituting the 2nd and 3rd tier vendor base and for mitigating the 
effects of loss of quality control processes and subcontractor/supplier 
obsolescence. If there is a three-month break, the estimated cost to 
restart the manufacturing line is $237 million. If there is a six-month 
break, the estimated cost is $262 million. If there is a one-year 
break, the estimated cost is $300 million. The major cost drivers for a 
six-month break are: loss of learning ($72 million), restoration/
recertification of the manufacturing line(s) ($105 million), loss of 
sole source 2nd and 3rd tier vendors ($45 million), and subcontractor/
supplier parts obsolescence ($40 million).
    The Missile Defense Agency views the break even point for the 
ground based interceptor manufacturing lines as less than five 
interceptors per year. Below five per year, the unit costs of the 
manufactured interceptors increase to a point where it is more cost 
effective to allow the manufacturing line break. However, the current 
Agency budget provides for no less than eight interceptors per year. 
This profile does not provide for optimum unit cost efficiency but it 
does provide an acceptable unit cost and precludes any break in the 
manufacturing line. I have provided a copy of the Manufacturing Rate 
Impact on GBI Unit Prices chart for the record.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Question. You have said that the kill vehicle has 62 percent of the 
same software and 67 percent of the same hardware as the version flight 
tested years ago. That means that over one-third of the system is 
different, yet we are planning to buy ten more of these kill vehicles 
and the boosters that go with them, despite the fact that we don't have 
a single successful test with this booster or kill vehicle. Why does 
that make sense?
    Answer. The overall functionality of the kill vehicle has not 
changed since the earliest flight tests demonstrated the soundness of 
the basic design. The changes have focused on producibility, parts 
obsolescence, reliability, and algorithm improvements. These changes 
have been verified by extensive ground-based hardware- and processor-
in-the-loop testing. Buying more kill vehicles is not a high risk 
proposition.
    Question. Are any missile defense tests planned from the silos in 
which interceptor missiles are currently installed?
    Answer. Although, we may at some future date conduct Ground-based 
Missile Defense flight testing out of Fort Greely, Alaska where 
interceptors are currently installed, plans for such flight test from 
the silos in Fort Greely are being held in abeyance pending required 
environmental and safety approval processes. The Ground-based Missile 
Defense system also currently has four operationally configured silos 
at Vandenberg Air Force Base. Two of these Vandenberg AFB silos, do not 
currently have interceptors installed, and we intend to use these silos 
for missile defense flight testing.
    I have asked Admiral Paige and her Mission Readiness Task Force to 
propose a plan for the next few flight tests, including objectives and 
schedules. This flight test plan is part of a larger plan, which 
addresses processes and procedures to enhance the verification of 
operational readiness of the GMD weapons system. Defining flight test 
objectives and schedules will be a logical part of this ongoing 
process. Admiral Paige and the Mission Readiness Task Force will 
recommend a path forward for the GMD program.
               countermeasure and countermeasure testing
    Question. You recently said that the ground-based system has been 
tested against balloon countermeasures. However, those tests involved 
balloons that were significantly different in size than the warhead, 
and therefore had significantly different infrared signatures. In 
essence, you demonstrated that your sensors and interceptor can 
differentiate between large, medium and small. While this is a 
significant accomplishment, it's also something that dogs and one-year 
old babies can do. But it is nothing like situation the defense would 
face in the real world, where the balloons and the warhead would be 
made to look alike. How would the system differentiate in that 
scenario?
    Answer. [Deleted].
    Question. If North Korea launched a missile at us today, and the 
target suite included a dozen or more objects designed to have infrared 
signatures identical to the warhead, how could the kill vehicle decide 
which was the real target?
    Answer. The Ground-Based Midcourse Defense Exoatmospheric Kill 
Vehicle decides between the warhead and other objects by using multiple 
infrared and visible sensors, each capable of measuring multiple 
features. These features are based upon fundamental physical 
characteristics of the object. Non-warhead objects generally do not 
have signatures identical to the warhead for all the measured features. 
Flight testing has demonstrated the ability of the EKV to discriminate 
between the real target and other objects with similar infrared 
signatures. In addition, it is important to point out that the kill 
vehicle also relies on other GMD system elements for input. For 
instance, data from ground-based radars are relayed to the 
Exoatmospheric Kill Vehicle and are also used to decide which object is 
the warhead. The radar data represents an independent set of target 
features, making it more difficult for all warhead target features to 
be replicated by the other objects. The combination of infrared and 
visible sensors, and radar data enable the GMD system to discriminate 
between warheads and countermeasures and debris.
    Question. What is the status of the Red, Blue, and White teams 
created to increase the robustness of the countermeasures element of 
the missile defense testing program? Are they still functioning? How do 
they interface with the Missile Defense Agency?
    Answer. The Missile Defense Agency Countermeasures/Counter-
Countermeasures Program's Red, Black, Blue, and White Teams are active 
and functioning. The Red, Black, Blue, and White Teams assess technical 
risks, identify mitigation approaches, and support development of 
engineering changes to the baseline Ballistic Missile Defense System to 
improve performance against adversary capabilities, focusing primarily 
on addressing countermeasures. The teams are managed and funded under 
the Missile Defense Agency Deputy for Systems Engineering and 
Integration, and their products are integrated across all aspects of 
the Ballistic Missile Defense System, to include testing.
    Question. A group of 22 scientists recently said that the current 
system ``will be unable to counter a missile attack that includes even 
unsophisticated countermeasures.'' Do you agree with that assessment?
    Answer. No, based upon a large body of ground and flight test data 
I disagree with that assessment.. The ability of the Ballistic Missile 
Defense System to respond to countermeasures has always been a critical 
objective of the MDA ground and flight test program. The Ground-Based 
Midcourse Defense element, for example, executed in fiscal year 2004 
and fiscal year 2005 a series of high-fidelity hardware-in-the-loop 
ground test campaigns employing operational hardware and software; 
these tests included various so-called unsophisticated countermeasures. 
The hardware-in-the-loop test campaigns were preceded by a detailed 
series of ground test events using high fidelity digital simulations of 
the Ballistic Missile Defense System. These digital simulations 
included various countermeasures but with a significantly larger number 
of countermeasure variations. These tests have indicated that the 
Ballistic Missile Defense System has a significant initial capability 
to operate against some countermeasure types.
    In parallel with the ground test venues, there has been flight 
testing of the Ground-Based Midcourse Defense. Using a prototype 
Ground-Based Interceptor, GMD was successfully tested against 
increasingly threat-representative separating reentry vehicles 
accompanied by various debris and countermeasure objects with four hit-
to-kill successes out of five tests.
    Research, development and testing of new discrimination approaches 
also continues. The development effort includes dedicated 
countermeasure flight tests as well as dedicated counter-countermeasure 
ground and flight test demonstrations. Comprehensive countermeasure 
data have been acquired during these developmental flight tests for all 
the countermeasures listed above; flight data on other more advanced 
countermeasures have also been obtained. These data are currently being 
used in the development and testing of additional counter-
countermeasures capabilities to be implemented in Block 2004 Ballistic 
Missile Defense System and beyond.
    Question. Vice Admiral Lowell Jacoby, the Director of the Defense 
Intelligence Agency, recently suggested that North Korea may have 
developed a small nuclear warhead cable of being delivered onto U.S. 
territory. Do you agree with that assessment? If the North Koreans 
don't have the capacity today, how soon could they develop it?
    Answer. As Mr. Di Rita pointed out in the press conference on April 
29th, there is no new assessment on North Korea. Just to reiterate the 
official assessment of the Taepo Dong-2, I'd like to quote from Vice 
Admiral Jacoby's February 16th statement to the Senate Select Committee 
on Intelligence, ``North Korea continues to invest in ballistic 
missiles to defend itself against attack, achieve diplomatic advantage 
and provide hard currency through foreign sales. Its Taepo Dong-2 
intercontinental ballistic missile may be ready for testing. This 
missile could deliver a nuclear warhead to parts of the United States 
in a two stage variant and target all of North America with a three 
stage variant.''
                             effectiveness
    Question. In March of 2003, Edward ``Pete'' Aldridge, who was then 
the Under Secretary of Defense for Acquisition, Technology and 
Logistics, testified before the Senate Armed Services Committee that 
the ground-based interceptor system would be 90 percent effective. Can 
you explain how he arrived at that figure and what data it is based on? 
Do you agree with his assessment?
    Answer. Yes, I agree with his assessment. The effectiveness figure 
you cited is known as Probability of Engagement Success. The equation 
relating the probability of engagement success includes the number of 
shots and the probability of kill of the interceptors. It also includes 
all non-kill contributions such as availability, detection, tracking 
and planning which are correlated with each shot against a single 
missile.
    [Deleted].
    Question. David Duma, the Acting Director of the Pentagon's 
Operational Test and Evaluation Office, recently testified that ``I 
don't think that you can say the system is operationally ready today.'' 
What is your view of his assessment?
    Answer. David Duma made two principal points in his testimony. I 
concur with both. First, he stated that ``integrated ground testing 
results to date indicate the testbed has the potential to defend 
against a limited attack under certain conditions,'' but ``difficulties 
in the flight test program have delayed the confirmation of intercept 
capability using the testbed.'' He also stated that the ``maturity of 
the testbed will not yet support realistic operational end-to-end 
testing.'' Both points are valid, and we at the Missile Defense Agency 
are working hard to address them in the remaining months of 2005.
    The recent test aborts we experienced were major disappointments, 
but they were not major technical setbacks. We recognize the importance 
of demonstrating the effectiveness of our system, and realize that 
confidence in its capabilities will be limited until we can demonstrate 
a successful intercept during an operationally realistic test. We 
currently plan to conduct an end-to-end test with operational assets 
this calendar year, and expect to execute three to four more during 
2006. In planning our future test program, I work closely with Mr. 
Duma, and we have jointly approved an integrated master test plan 
through 2007 that combines developmental and operational testing to 
reduce costs and increase test efficiency.
    The maturity of the testbed will also increase significantly when 
the Sea-based X-band radar arrives in the North Pacific later this 
year. While COBRA DANE and Aegis radars can provide initial defensive 
capability, this new radar is an essential element to provide mid-
course discrimination and track updates.
    Until we complete operationally realistic testing, we will not have 
complete confidence that the system is operationally ready. We do, 
however, currently have deployed an increasingly robust system that 
provides an emergency capability.
    Question. The Missile Defense Agency has not been able to conduct a 
successful test even of the highly scripted series currently underway 
since October 2002? How can the system have any credibility?
    Answer. The Ground-based Midcourse Defense System has proven Hit-
to-Kill technology works, and that far-flung sensors, command & control 
components and interceptors can work together to kill a threat target. 
It has done this not only through 5 successful flight tests, but also 
through significant integrated ground testing of the software/hardware-
in-the-loop, providing confidence that the system will perform as 
designed.
    The Agency was not successful on recent flight tests, two of which 
failed to launch the interceptor. However, we have root caused the 
problems, implemented corrective actions, and brought in two separate 
teams of experts to independently assess these and other processes 
across the program. The Independent Review Team (IRT), led by Dr. Bill 
Graham, reviewed the flight failures, and recommended process changes 
to address flaws that they identified. The Director, MDA then 
established the Mission Readiness Task Force, including elements of GMD 
and Boeing, under the command of RAdm Kate Paige to implement changes 
as necessary to assure a GMD system that is ready and able whenever 
called upon by an operational commander, or a test director, based on 
recommendations from the IRT, GMD & Boeing initiatives, and her own 
Task Force.
    The successful testing that has been accomplished to date does not 
excuse the recent flight failures, but it does put the condition of the 
system in perspective and provide confidence that we do indeed have a 
thin line of defense available to us today.
    Examples of the successful testing accomplished over the last one-
two years follow:
    Four software/hardware-in-the-loop Integrated Ground Tests, and 
four System Integration and Check-Out Tests using the actual deployed 
system. Integrated Ground Tests use a software and hardware-in-the-loop 
configuration in the laboratory to test the system against an array of 
threat scenarios. Approximately 80 percent of the laboratory ground 
test configuration is the real Ground-based Midcourse Defense Software/
Hardware and the remaining 20 percent is simulated. The simulated 
portions of the test configurations are accredited to represent the 
threat, environments, and those portions of the system such as 
interceptor fly out, that are not possible in a laboratory. A 
comprehensive set of System Integration and Check Out tests on the 
deployed system certify that the Ground-based Midcourse Defense 
interfaces are fully operational in a fielded environment.
    Ground-based Midcourse Defense conducted a successful flight test 
of the operational configuration of the booster vehicle in January 
2004.
    During IFT-13C and IFT-14, the two recent flight tests where the 
interceptor failed to launch, we were able to test the command and 
control components and their ability to accurately generate sensor, 
communications and weapons task plans necessary to automatically 
initiate the interceptor launch process.
    IFT-13C and IFT-14, as well as the Integrated Ground Tests and 
System Integration and Check Out Tests, exercised the warfighting 
procedures, with soldiers under operational command operating the 
warfighting consoles and operational test agencies observing and 
evaluating.
    Question. The United States has been vigorously pursuing a national 
missile defense for many years. Do you believe that our program has 
served as a deterrent on the nuclear weapons aspirations of either the 
Iranians or the North Koreans?
    Answer. I have not seen any evidence that would indicate that 
either North Korea or Iran has been deterred in their nuclear weapons 
aspirations by our program. I am certain, however, that the serious 
commitment the United States has demonstrated to developing and 
fielding effective missile defenses has greatly complicated the ability 
of North Korea and Iran to threaten the United States with nuclear 
weapon delivery systems.

                          SUBCOMMITTEE RECESS

    Senator Stevens. Our subcommittee will now stand in recess 
until next Tuesday, May 17, when we receive testimony from 
public witnesses concerning the President's budget request. 
That will be an almost all-day hearing.
    Thank you very much.
    [Whereupon, at 10:59 a.m., Wednesday, May 11, the 
subcommittee was recessed, to reconvene at 2:30 p.m., Tuesday, 
May 17.]

</pre></body></html>
